Appendix
1. State of Wisconsin v. Mitchell Christen, 2021 WI 39, 396 Wis. 2d 705, 958
N.W.2d 746 (Wis.)
2. State of Wisconsin v. Mitchell Christen, 2020 WI App 19, 391 Wis. 2d 650, 943
N.W.2d 357 (Wis. Ct. App.)
3. State of Wisconsin v. Mitchell Christen, Dane County 2018-CM-198, Motion
Hearing, July 13, 2018

4. U.S. Const. Amed. II
5. Wis. Stat. §941.20(1)(a)

Appendix 1

101

0

Neutral
As of: September 27, 2021 11:00 PM Z

State v. Christen
Supreme Court of Wisconsin
May 4, 2021, Filed
No. 2019AP1767-CR
Reporter

2021 WI 39 *; 396 Wis. 2d 705 **; 958 N.W.2d 746 ***; 2021 Wisc. LEXIS 59 ****; 2021 WL 1741881
KINGSLAND ZIEGLER, C.J. This is a review of
State of Wisconsin, Plaintiff-Respondent, v.
an unpublished decision of the court of appeals,
Mitchell L. Christen, Defendant-AppellantState v. Christen, No. 2019AP1767-CR, 2020 WI
Petitioner.
App 19, 391 Wis. 2d 650, 943 N.W.2d 357,
slip op. (Wis. Ct. App. Mar. 17, 2020),
unpublished
Prior History: [****1] REVIEW of a decision of
[**712] affirming the Dane County circuit court's'
the Court of Appeals. (L.C. No. 2018CM1998).
judgment convicting Mitchell Christen of operating
or going armed with a firearm while intoxicated,
State v. Christen, 2020 WI App 19, 391 Wis. 2d
650,943 N.W.2d 357,2020 Wisc. App. LEXIS 119 contrary to Wis. Stat. § 941.20(1)(b) (2017-18).2
(Mar. 17, 2020)
Disposition: Affirmed.
Counsel: For the defendant-appellant-petitioner,
there were briefs filed by Steven Roy, Sun Prairie.
There was an oral argument by Steven Roy.
For the plaintiff-respondent, there was a brief filed
by Nicholas S. DeSantis, assistant attorney general;
with whom on the brief was Joshua L. Kaul,
attorney general. There was an oral argument by
Nicholas S. DeSantis.

The Honorable Nicholas J. McNamara presided.

Judges: ZIEGLER, C.J., delivered the majority
opinion of the Court, in which ANN WALSH
BRADLEY, ROGGENSACK, DALLET, and
KAROFSKY, JJ., joined. HAGEDORN, J., filed a
concurring opinion. REBECCA GRASSL
BRADLEY, J., filed a dissenting opinion.

subsequent references to the Wisconsin Statutes are to the 201718 version unless otherwise indicated.

2 A11

Opinion by: ANNET'TE KINGSLAND ZIEGLER

Opinion
[*P1] [**711]

[***749]

ANNE i

[*P2] Christen challenges his conviction arguing
that Wis. Stat. § 941.20(1)(b) is unconstitutional as
applied to him. He does not raise a facial challenge
to the statute. Specifically, Christen [****2] claims
that the statute violates his fundamental Second
Amendment right to armed self-defense as held in
District of Columbia v. Heller, 554 U.S. 570, 128
S. Ct. 2783, 171 L. Ed. 2d 637 (2008).3 In Heller,
the United States Supreme Court recognized that
the core of the Second Amendment is the right to

Ih

3 We note that the United States Supreme Court in District of
Columbia v. Heller, 554 U.S. 570, 128 S. Ct. 2783, 171 L. Ed. 2d
637 (2008), stated this right in a variety of ways: "the individual
right to possess and carry weapons in case of confrontation," iii. at
592; "an individual right to use arms for self-defense," id. at 603; and
"the right of law-abiding, responsible citizens to use arms in defense
of hearth and home," id. at 635. Each of these formulations makes
clear that the Second Amendment protects the right of an individual
to possess and carry weapons for self-defense. See State v.
Roundtree, 2021 WI I. 535, 395 Wis. 2d 94, 952 N.W.2d 765
(identifying the core Second Amendment right detailed in Heller as
"the right of a law-abiding, responsible citizen to possess and carry a
weapon for self-defense").

102

2021 WI 39, *39; 396 Wis. 2d 705, **712; 958 N.W.2d 746, **749; 2021 Wisc. LEXIS 59, ****2

possess or carry a firearm for self-defense. Id. at
635.

Christen said "something aggressive" and had
called C.R.'s mother a "piece of trash drunk."

[*P3] However, as to Christen's as-applied
challenge, we conclude Wis. Stat. § 941.20(1)(b)
does not strike at the core right of the Second
Amendment because he did not act in self-defense.
Moreover, we conclude that § 941.20(1)(b) does
not severely burden his Second Amendment right.
Accordingly, we apply intermediate [***750]
scrutiny to Christen's as-applied challenge.
[**7131 Because § 941.20(1)(b) is substantially
related to the important government objective of
protecting public safety, it survives intermediate
scrutiny as applied to Christen.

[*P7] Some point later in the night, C.R., B.H.,
and K.L. returned to the apartment. Another friend
of the [**714] men, M.A., joined them after they
returned. Christen opened the door for M.A. and
said, "Here's the asshole roommates you were
looking for. . . ."

[*P4] Accordingly, we conclude that Christen's
as-applied challenge to Wis. Stat. § 941.20(1)(b)
fails. Therefore, we affirm.
I. FACTUAL BACKGROUND AND
PROCEDURAL POSTURE
[*P5] This case involves somewhat conflicting
testimony about Christen arming himself in selfdefense. Christen, his roommates, and his
roommates' friends had been drinking alcohol on
the evening of February 2, 2018. There was
conflicting testimony about how much and to what
extent there was arguing and pushing among them.
However, the testimony was uncontroverted that
Christen [****3] did arm himself. The jury was
called upon to weigh and consider the evidence and
determined that Christen went armed, was
intoxicated, and did not act in self-defense.
[*P6] The jury heard that Christen and his two
roommates, B.H. and C.R., had a rocky
relationship. This rocky relationship came to a head
on the night that gave rise to this case, February 2,
2018. On that night, Christen and B.H. got in an
argument, which C.R. and a friend, K.L, overheard.
Prior to the argument, all of the men had been
drinking alcohol. At the conclusion of the initial
argument, Christen went back to his room, and
CR., B.H., and K.L. left to go to a bar. B.H.
testified that before they went to the bar that night

[*P8] The jury also heard that Christen, C.R., and
M.A were in an argument. Christen had insulted
C.R.'s mother, and M.A. intervened. Christen
testified that M.A. pushed [****4] Christen with
his chest up against Christen's doorframe. Christen
testified that, as a response to M.A.'s intervention,
he said, "[he] wasn't going to be a victim and [he]
had a weapon and [he] wasn't afraid to use it." He
testified that he then pointed to his handgun. He
continued his testimony, stating, "I just turned and
pointed that it was where I had kept it on my
nightstand and I said I feel intimidated. I'm into my
bedroom, which is small. I have nowhere else to go.
I was presenting the weapon as a deterrent." Upon
Christen pointing to the handgun, the argument
ended, and Christen closed his bedroom door.
[*P9] At some point, M.A. stopped in front of
Christen's room, and they exchanged words. M.A.
testified that he knew Christen was upset so he
followed Christen to his room and said, "hey, just
take it easy, have fun with us." M.A. stated that
Christen responded by picking up his firearm and
saying, "get out of here or I will shoot you." M.A.
testified that he shut the door and returned to the
others. C.R. similarly testified that he watched
M.A. stop in front of Christen's room and saw a
"gun come up between [M.A.] and [Christen]." He
confirmed that M.A. shut the door, returned
to [****5] the others, and said "[your] fucking
roommate just pulled a gun on me. What the fuck."
Christen characterized the incident differently. He
stated that after M.A. opened the door, he picked up
his handgun, "held it sideways towards the wall
away from [M.A.]," and told M.A. to leave, which
M.A. did.

103

2021 WI 39, *P10; 396 Wis. 2d 705, **714; 958 N.W.2d 746, ***750; 2021 Wisc. LEXIS 59, ****5
[*P10] [**715] [***751]
Christen began
recording the situation on his cellphone after this
second interaction with M.A. The jury viewed the
video at trial; it began with Christen saying that
"Ulf someone comes through this door [he] will
shoot them." He further told M.A., who was
standing in front of his door, that MA. "should get
the fuck out of here." In response, M.A. threatened
to call 911. Christen stated that he didn't "give a
fuck" and that M.A. needed to leave. M.A.
responded, "Seriously. Be nice, be nice man, be
nice." Christen can later be heard saying on the
video the following:
They're not listening; I've asked them to leave.
I'm within my right. I said go away, get away
from my house, away from my room. They
should leave it would just be smart for them.
[*P11] Not long after that, Christen said that he
was going to the kitchen with his handgun because
he did not "trust anybody in this house." Christen
came [****6] out of his room in underwear
displaying a handgun tucked in his waistband. The
video then becomes jostled. The testimony revealed
that M.A. disarmed him, and Christen returned to
his room. C.R. testified that he heard Christen cock
his shotgun, which the video confirms. K.L.
disassembled the handgun and placed the
disassembled handgun in the cabinets.
rP121 After he returned to his room, Christen
stopped the recording on his phone and called 911.
The 911 recording was also played for the jury.
Christen told the 911 operator that M.A. stole his
handgun. He also stated that "[i]f someone comes
through [his] door, they're getting a fucking face
full of lead." Over the course of the nearly 20minute 911 phone call, Christen denied threatening
M.A. Further, when the 911 [**716] dispatcher
asked Christen whether M.A. attacked him before
he left with his handgun, Christen said "not
physically."
[*P13] The police arrived in response to
Christen's 911 call. Christen's two roommates and
their two friends exited the apartment and reported

104

to the police that Christen was intoxicated and had
threatened them with his firearms. Christen
remained in the apartment for approximately 30
minutes before exiting the apartment [****7]
unarmed. One of the officers who interacted with
Christen after he exited the apartment testified that
as he spoke to Christen he "observed an odor of
intoxicants coming from [Christen's] breath and
mouth [and] his eyes [were] glassy and bloodshot."
Other members of law enforcement testified that
Christen appeared "worked up" and "paranoid."
[*P14] The police arrested Christen and brought
him to the booking area of the jail. While in the
booking area, Christen claimed he armed himself in
self-defense.
[*P15] On February 4, 2018, the circuit court
found probable cause that Christen did commit a
crime. Two days later, the State filed a criminal
complaint in the circuit court charging Christen
with three counts: Count 1, pointing a firearm at
another, contrary to Wis. Stat. * 941.20(1)(c), a
Class A Misdemeanor; Count 2, operating or going
armed with a firearm while intoxicated, contrary to
941.20(1)(b), a Class A Misdemeanor; and Count
3, disorderly conduct, contrary to Wis. Stat. *
947.01(1), a Class B Misdemeanor. Christen made
his initial appearance the same day.
[*PIM On March 21, 2018, Christen filed a
motion to dismiss Count 2, operating or going
armed with a firearm while intoxicated, arguing
that it violated his [**717] Second Amendment
right. The circuit court held a hearing [****8] on
this motion to dismiss on July 13, 2018. The court
concluded that Wis. Stat. * 941.20(1)(b), the statute
that Christen challenged, "is focused narrowly
enough to withstand [the] constitutional [***752]
challenge that's been raised" and denied Christen's
motion.
[*P17] On October 17, 2018, Christen's jury trial
began. During the trial, the jury heard testimony
from Christen, the individuals in the apartment, and
the officers who arrived on the scene. After both
sides rested their arguments, the court instructed the

2021 WI 39, *P10; 396 Wis. 2d 705, **717; 958 N.W.2d 746, ***752; 2021 Wisc. LEXIS 59, ****8

referenced in his brief" and affirmed Christen's
judgment of conviction. Id.

jury.

[*P18] As part of the jury instructions, the circuit
court read a self-defense instruction on each count. [*P22] On April 16, 2020, Christen petitioned this
The circuit court informed the jury that it could find court for review; we granted his petition. [****10]
Christen guilty of operating or going armed with a II. STANDARD OF REVIEW
firearm while intoxicated only if it was "satisfied
beyond a reasonable doubt that . . . [Christen] did [*P23] Christen asks us to review whether Wis.
not act lawfully in self-defense." The parties then Stat. § 941.20(1)(b) is unconstitutional as applied to
made closing arguments, and the court submitted him. "Examining the constitutional application of a
the case to the jury.
statute presents a question of law that this court
reviews independently of the determinations
[*P19] After deliberating, the jury returned a rendered by the circuit court or court of appeals."
verdict of not guilty on Count 1, pointing a firearm State v. Roundtree, 2021 WI 1, 512, 395 Wis. 2d
at another, and guilty on Counts 2 and 3, operating 94,952 N.W.2d 765.
or going armed with a firearm while intoxicated
and disorderly conduct, respectively. Thus, the jury [*P24] This case also requires us to determine the
concluded affirmatively that the State [****9] appropriate level of scrutiny to guide our analysis.
proved beyond a reasonable doubt that Christen did [**719] "This issue likewise presents a question
not operate or go armed with a firearm nor engaged of law that we determine independently." Id., ¶13.
in disorderly conduct in self-defense. The following III. ANALYSIS
day, the circuit court sentenced Christen to four
months in the Dane County jail for Count 2 and two [*P251 The Second Amendment to the United
months in the Dane County jail for Count 3, to run States Constitution provides: "A well regulated
concurrently. The circuit court subsequently held Militia, being necessary to the security of a free
State, the right of the people to keep and bear
the sentence in abeyance pending appeal.
Arms, shall not be infringed."5 The right to keep
Christen
2019,
13,
September
On
[**718]
[*P20]
and [***753] bear arms is an individual "core"
appealed his conviction of operating or going right protected and is a "right of law abiding,
armed with a firearm while intoxicated, arguing responsible citizens to use arms in defense of hearth
that Wis. Stat. § 941.20(1)(b) was unconstitutional and home." Heller, 554 U.S. at 635. However,
as applied to him. The State did not file a response "[hike most rights, the right secured by the Second
to this appeal.
Amendment is not unlimited." Id. at 626.
Historically, "the right was not a right to keep and
[*P21] The court of appeals4 affirmed the
No. carry any weapon whatsoever in any manner
Christen,
conviction.
of
judgment
whatever purpose." Id. The
. The court of appeals whatsoever and for
2019AP1767-CR,
Heller Court explained:
determined that Christen failed to develop his asapplied challenge based on the facts of his
[N]othing in our opinion should be taken to
particular case. Id., 57. The court of appeals held
that this failure to apply the law to his particular
facts was "so complete that [the court did) not need 5 Similarly, Article 1, section 25 of the Wisconsin Constitution
to address the standard of review or other points provides: "The people have the right to keep and bear arms for
Because Christen was appealing a misdemeanor conviction, one
court of appeals judge, the Honorable Brian W. Blanchard, heard his
appeal. See Wis. Stat. § 752.31(2)(f), (3).

4

105

security, defense, hunting, recreation or any other lawful purpose."
However, Christen exclusively focuses his arguments on the Second
Amendment, so we will exclusively focus our analysis on the Second
Amcndment as well. See Roundtree, 395 Wis. 2d 94 (focusing
exclusively on the Second Amendment in a similar challenge).

2021 WI 39, *P10; 396 Wis. 2d 705, **719; 958 N.W.2d 746, ***753; 2021 Wisc. LEXIS 59, ****10

cast doubt on longstanding prohibitions on the in his home for the purpose of self-defense.
possession of firearms by felons and Specifically, Christen asserts that he was armed in
the [****11] mentally ill, or laws forbidding response to an ongoing situation in which he was
the carrying of firearms in sensitive places such afraid he may need to resort to self-defense, despite
as schools and government buildings, or laws the jury's conclusion that he did not act in selfimposing conditions and qualifications on the defense. He requests that this [**721] court ignore
the two-step approach that has become the
commercial sale of arms.
consensus framework for analyzing such Second
Id. at 626-27. The Court described these regulations Amendment challenges6 and that this [***754]
and prohibitions as "presumptively lawful." Id. at court applied in Roundtree. 395 Wis. 2d 94, 5539[**720] 627 n.26. Two years after Heller, the 40.
Court held that the Second Amendment was
incorporated against the States. McDonald v. City [*P29] While this two-step approach has been
of Chicago, 561 U.S. 742, 750, 130 S. Ct. 3020, widely adopted, courts are divided on which level
177 L. Ed. 2d 894 (2010). This means that the of scrutiny to apply if a law substantially burdens
Second Amendment's protections "apply identically the core Second Amendment right.7 Christen
to the States and the Federal Government." Id. at asserts that, if we continue to utilize the two-step
approach, we should apply strict scrutiny to his
766 n.14.
case because the right to bear arms is fundamental
[*P26] Christen was convicted of possession of a and the statute burdens the core of the Second
firearm while intoxicated contrary to Wis. Stat. § Amendment. He contends that Wis. Stat. §
941.20(1)(b), which provides that a person who 941.20(1)(b) cannot survive strict scrutiny review
"[o]perates or goes armed with a firearm while he and that, even if this court were to apply [****13]
or she is under the influence of an intoxicant" "is intermediate
still
is
law
the
scrutiny,
guilty of a Class A misdemeanor."
him.
to
applied
unconstitutional as
[*P27] Wisconsin Stat. § 941.20(1)(b) bars the
use of a firearm when the individual is intoxicated.
This statute does not completely dispossess a
lawful firearm owner from ownership. It merely
limits the circumstances under which the lawful
firearm owner may use or carry the firearm,
specifically while intoxicated. Further, a lawful
firearm owner, even if intoxicated, cannot be
convicted under § 941.20(1)(b) if he or she acts in
self-defense.
[*P28] Christen argues that Wis. Stat. §
941.20(1)(b) is unconstitutional as applied to him
Second
because it burdens his [****12]
Amendment right to armed self-defense recognized
in Heller. He frames the issue in terms of whether
the consumption of a legal intoxicant voids the
Second Amendment's guarantee of the right to
carry a firearm in self-defense. He argues that his
possession of his firearms is within the scope of the
Second Amendment because he carried his firearms

[*P30] We begin our analysis by discussing asapplied challenges generally. We then apply the
established two-step approach to Second
Amendment challenges that we set forth and
applied in Roundtree, to Christen's challenge to

"See. e.g., Gould v. Morgan, 907 F.3d 659, 668 (1st Cir. 2018)
(collecting cases that applied the two-step approach from the Second,
Third, Fourth, Fifth, Sixth, Seventh, Ninth, Tenth, and D.C.
Circuits); GeorgiaCarry.org, Inc. v. U.S. Army Corps of Eng'rs, 788
F.3d 1318, 1322 (11th Cir. 2015) (applying the two-step approach);
see also State v. Weber, No. 2019-0544, 2020-Ohio-6832, 2020 WL
7635472, at 513 (same); People v. Burns, 2015 IL 117387, 538, 413
Ill. Dec. 810,79 N.E.3d 159 (111. 2015) (same); Hertz v. Bennett, 294
Ga. 62,751 S.E.2d 90,93 (Ga. 2013) (same).
7 Compare Mai v. United States, 952 F.3d 1106, 1115 (9th Cir. 2020)
(applying strict scrutiny to "laws that both implicate a core Second
Amendment right and place a substantial burden on that right" while
applying intermediate scrutiny in any other context) cert. denied, No.
20-819, 2021 U.S. LEX1S 2191, 2021 WL 1602649 (mem.) (U.S.
Apr. 26, 2021), with Ezell v. City of Chicano, 651 F.3d 684,708 (7th
Cir. 2011) (applying intermediate scrutiny on a sliding scale).

106

2021 WI 39, *P10; 396 Wis. 2d 705, **721; 958 N.W.2d 746, ***754; 2021 Wisc. LEXIS 59, ****13
Wis. Stat. § 941.20(1)(b).

[**722] A. As-Applied Challenges Generally
[*P31] As we have repeatedly stated, there is a
distinction between a facial and as-applied
challenge. See, e.g., Waupaca Cnty. v. K.E.K.,
2021 WI 9, 5514-15, 395 Wis. 2d 460, 954 N.W.2d
366. "Under a facial challenge, the challenger must
show that the law cannot be enforced under any
circumstances." Id., 514 (quoting Winnebago Cnty.
v. C.S., 2020 WI 33, 514, 391 Wis. 2d 35, 940
N.W.2d 875).
[*P32] "In contrast, in an as-applied challenge, we
assess the merits of the challenge by considering
the facts of the particular case in front of us 'not
hypothetical facts in other situations." Id., 515
(quoting League of Women Voters of Wis. Educ.
Network, Inc. v. Walker, 2014 WI 97, 513, 357
Wis. 2d 360, 851 N.W.2d 302). As we recently
explained in Roundtree:

concluded that he did not act in self-defense. As
this is an as-applied challenge, he must demonstrate
that under these facts, his constitutional rights were
violated. He does not assert that the statute is
unconstitutional in all applications.
[*P34] As explained in Roundtree, "[g]enerally,
Second Amendment challenges [***755] require
this court to undertake a two-step approach." 395
Wis. 2d 94, 539. Under this two-step approach,
"[w]e ask first 'whether the challenged law imposes
a burden on conduct falling within the scope of the
Second Amendment's guarantee.'" Id. (quoting
State v. Herrmann, 2015 WI App 97, 59, 366 Wis.
2d 312, 873 N.W.2d 257). "If the answer is no, then
the inquiry ends." Id. "If the first inquiry is
answered in the affirmative, then the court proceeds
to inquire into 'the strength of the government's
justification for restricting or regulating the
exercise [****15] of Second Amendment rights."
Id., 540 (quoting Herrmann, 366 Wis. 2d 312, 59).
We conduct this second inquiry through a meansend analysis and application of a heightened level
of scrutiny. See, e.g., id., 5538, 41 (applying
intermediate scrutiny to a challenge to a felon-inpossession law).

For an as-applied challenge to succeed, the
challenger must demonstrate that the
challenger's constitutional rights were actually
violated. If such a violation occurred, the
[*P35] Christen raises a Second Amendment
operation of the law is void as to the facts
challenge arguing that we should apply a
presented for the party asserting the claim. We
"categorical approach" despite the fact that we have
presume that the statute is constitutional, and
adopted a two-step approach. See id., 5526-40. We
the party raising a constitutional challenge must continue to reject a categorical approach and apply
prove [****14] that the challenged statute has
the same two-step approach we adopted in
been applied in an unconstitutional manner
Roundtree.
beyond a reasonable doubt.
395 Wis. 2d 94, 518 (citations omitted).
B. Wisconsin Stat. § 941.20(1)(b) Survives
Christen's Challenge.
[*P33] Christen argues in his as-applied challenge
that Wis. Stat. § 941.20(1)(b) interfered with his
fundamental right to bear firearms in self-defense,
which [**723] the Second Amendment guarantees
to him. Christen asserts that, despite his ingestion
of alcoholic intoxicants, he was carrying his
firearms for self-defense, ignoring that the jury

107

[**724] 1. Step one: Does Wis. Stat. §
941.20(1)(b) impose a burden on conduct falling
within the Second Amendment's scope?
[*P36] The first step in the inquiry is to consider
"whether the regulated activity falls within the
scope of the Second Amendment." Kanter v. Barr,
919 F.3d 437, 441 (7th Cir. 2019) (quoted source
omitted). "This is a textual and historical inquiry; if
the government can establish that the challenged
law regulates activity falling outside the scope of

2021 WI 39, *P10; 396 Wis. 2d 705, **724; 958 N.W.2d 746, ***755; 2021 Wisc. LEXIS 59, ****15
the right as originally understood, then 'the
regulated activity is categorically unprotected, and
the law is not subject to further Second Amendment
review." Id. (quoted source omitted). Thus, we
must determine whether the regulated activity here,
operating or going armed while intoxicated, falls
outside the scope of the Second Amendment as
historically understood. [****16] If it does fall
outside the scope, the inquiry ends, and the
challenged statute does not conflict with the Second
Amendment.
[*P37] We recognize that Wisconsin has a long
tradition of criminalizing the use and carrying of a
firearm while intoxicated. § 3, ch. 329, Laws of
1883. A similar tradition of laws regulating
firearms and alcohol also existed in some form at
the time of the founding. See State v. Weber, No.
2019-0544, 2020-Ohio-6832, 2020 WL 7635472, at
5103 (DeWine, J., concurring in judgment)
(collecting colonial statutes that criminalize the use
of a firearm while intoxicated). Such statutes
continued to proliferate and expand throughout the
United States during the 19th and 20th centuries.
See id., at 520 (collecting statutes criminalizing the
use or carrying of a firearm while intoxicated
enacted during the 19th and 20th centuries).

and Concurrence, infra (same).
[*P39] However, we need not resolve this case on
step one because, as we explain below, Christen's
challenge fails under step two. As such, we assume,
without deciding, that Wis. Stat. § 941.20(1)(b)
regulates conduct that falls within the scope of the
Second Amendment.8 See Weber, 2020-Ohio-6832,
2020 WL 7635472, at 522 (assuming step one is
answered affirmatively and collecting cases where
the court assumed arguendo step one).
2. Step two: Is Wis. Stat. § 941.20(1)(b)
unconstitutional as applied to Christen based on the
appropriate means-end analysis?

[*P38] [**725] While these statutes provide a
relevant, perhaps even persuasive backdrop that
shows a long history of criminalizing the use and
carrying of firearms while intoxicated, it is
debatable whether these statutes show that the use
and carrying of firearms in such circumstances is
categorically unprotected. Compare People v.
Deroche, 299 Mich. App. 301, 829 N.W.2d 891,
896 (Mich. Ct. App. 2013) (concluding that the
historical evidence demonstrates that the use and
carrying of a firearm while intoxicated was within
the scope [****17] of the Second Amendment)
and Dissent, infra (same) with Weber, 2020-Ohio6832, 2020 WL 7635472, at 5108 (DeWine, J.,
concurring in judgment) (concluding that the
historical evidence demonstrates that the use and
carrying of a firearm while [***756] intoxicated
was outside the scope of the Second Amendment)

108

[*P40] In considering step two, Heller dictates
that we apply some form of heightened scrutiny,
Heller, 554 U.S. at 628 n.27, so we first must
determine [**726] what level of heightened
scrutiny to apply to Christen's challenge. We then
must apply that level of scrutiny.
a. Level of scrutiny
[*P41] Christen and the State disagree as to the
level of scrutiny that we should employ in this case.
It is clear that we cannot use the rational basis level
of scrutiny to review statutes that are alleged to
burden core Second Amendment rights. Id. ("If all
that was required to overcome [****18] the right
to keep and bear arms was a rational basis, the
Second Amendment would be redundant with the
separate constitutional prohibitions on irrational
laws, and would have no effect."). So, we must
determine whether intermediate or strict scrutiny
applies to Christen's as-applied challenge.
[*P42] In Roundtree, we adopted the Seventh
Circuit's approach from Ezell v. City of Chicago,
651 F.3d 684 (7th Cir. 2011), which indicates that
"the rigor of. . . judicial review will depend on how
close the law comes to the core of the Second
Amendment right and the severity of the law's

8 We leave further analysis of step one for another case. No
inferences should be drawn from our assumption and preference to
decide these issues based upon our analysis in step two.

2021 WI 39, *P10; 396 Wis. 2d 705, **726; 958 N.W.2d 746, ***756; 2021 Wisc. LEXIS 59,

burden on that right." Roundtree, 395 Wis. 2d 94,
5526, 34 (quoting Ezell, 651 F.3d at 703). "[T]he
core right identified in Heller is 'the right of a lawabiding, responsible citizen to possess and carry a
weapon for self-defense . . . .'" Id., 535 (quoting
United States v. Chester, 628 F.3d 673, 683 (4th
Cir. 2010)). Because Christen's as-applied
challenge argues that Wis. Stat. § 941.20(1)(b)
burdens this core right that Heller identified, we do
not need to conclusively determine the entire scope
of the Second Amendment to resolve this case. See
id., 536; Serv. Emp. Int'l Union, Loc. 1 v. Vos,
2020 WI 67, 524, 393 Wis. 2d 38, [**7271 946
N.W .2d 35 ("We do not step out of our neutral role
to develop or construct arguments for parties; it is
up to them to make their case."). Accordingly, this
case requires us to determine how close §
941.20(1)(b) comes to Christen's right to possess
and carry a weapon for self-defense and the
§
941.20(1)(b)
burden
the
severity of
imposes [****19] on that right.
i. Wisconsin Stat. § 941.20(1)(b) does not strike at
the core of the Second Amendment.
[*P43] Christen argues that Wis. Stat. §
941.20(1)(b) strikes at the core of the Second
Amendment. He asserts that he has a core
fundamental Second Amendment right to possess
and bear his firearms in anticipation of the need for
self-defense, whether intoxicated or not, so as
[***757] to necessitate the highest tier of
scrutiny— —strict scrutiny. While he does have the
right to "possess and carry weapons in case of
confrontation," "the right secured by the Second
Amendment is not unlimited." Heller, 554 U.S. at
592, 626. As such, we must consider how close to
the Second Amendment core right that §
941.20(1)(b) strikes.
[*1'44] Although at trial Christen successfully
raised9 the issue of self-defense, the jury found
beyond a reasonable doubt that Christen did not act
putting self-defense at issue means the defendant has
satisfied the burden of production." State v. Austin, 2013 WI App
96, 512 n5, 349 Wis. 2d 744,836 N.W.2d 833.

9 "'Successfully'

in self-defense. Wisconsin has codified the
privilege of self-defense. § 939.48(1) ("A person is
privileged to threaten or intentionally use force
against another for the purpose of preventing or
terminating what the [**728] person reasonably
believes to be an unlawful interference with his or
her person by such other person."). This selfdefense privilege extends further in the context of
the home where the privilege may include the
presumptive right to use deadly force. See §
939.48(1m)(ar). When a defendant successfully
raises the self-defense privilege, [****20] the State
has the burden to disprove self-defense beyond a
reasonable doubt at trial. State v. Head, 2002 WI
99, J106, 255 Wis. 2d 194,648 N.W.2d 413. If the
State cannot prove beyond a reasonable doubt at
trial that the defendant did not act in self-defense,
then the self-defense privilege serves as "a defense
to prosecution for any crime based on that
conduct." § 939.45.
[V45] Throughout his brief, Christen continually
asserts that he went armed for self-defense.
However, the jury was instructed on self-defense
and concluded that Christen did not act in selfdefense. As Christen raises an as-applied challenge,
his challenge must rest upon these facts. The jury
heard competing testimony and witnesses and was
instructed to consider whether Christen was armed
in self-defense. Given that the jury concluded that
Christen did not act in self-defense, it would be
irreconcilable to conclude that his right to selfdefense was somehow infringed. See Head, 255
Wis. 2d 194, 5106.1° As such, the facts of this case,
[**729] upon which Christen must rely for his as-

'°Christen does not assert that the self-defense jury instruction was
flawed. Furthermore, Christen does not assert that the scope of the
self-defense jury instruction contradicts the scope of self-defense that
the Second Amendment protects. As such, we will not develop this
argument for him. See Serv. Emp. Ind Union, Loc. 1 v. Vos, 2020
WI 67, 524. 393 Wis. 2d 38, 946 N.W.2d 35 ("We do not step out of
our neutral role to develop or construct arguments for parties; it is up
to them to make their case."). Accordingly, we assume, without
deciding, that the scope of the self-defense jury instruction is
commensurate with the scope of self-defense that the Second
Amendment protects.

109

2021 WI 39, *P10; 396 Wis. 2d 705, "729; 958 N.W.2d 746, ***757; 2021 Wisc. LEXIS 59,
applied challenge, are that he was not operating or
going armed with a firearm in self-defense.
[*P46] Christen also seems to infer that his
consuming intoxicants in his own home is a
relevant fact that makes Wis. Stat. § 941.20(1)(b)
unconstitutional as applied to him. By [****21]
this assertion, he could mean various things. His
argument is less than cogent. However, if he were
to possess his firearm in his home and not ingest
any intoxicants, this statute would not be
implicated. If he were ingesting intoxicants, in his
home, and possessing his firearm, that is not
prohibited under the statute unless he reaches the
point of intoxication. If he were to possess his
firearm in self-defense, even if intoxicated, he
would have a defense under Wis. Stat. § 939.48.
Here, the jury concluded that he possessed his
firearm, [***758] while he was intoxicated, and
that he was not acting in self-defense. That is in
fact a violation of § 941.20(1)(b).

beyond a reasonable doubt that "the person [had]
consumed a sufficient amount of alcohol to cause
the person to be less able to exercise the clear
judgment and steady hand necessary to handle a
firearm." Id. at 2. Because the jury here found
Christen guilty of operating or going armed with a
firearm while intoxicated, the jury had to conclude
that he was intoxicated and "less able to exercise
the clear judgment and steady hand necessary to
handle a firearm." Id.

[*P49] Moreover, this case does not present a
factual scenario wherein a person was drinking
intoxicants in his or her own home, alone, and
possessing a gun. The facts of this as-applied
challenge indeed reflect that Christen was not
merely in his home ingesting alcoholic beverages
and possessing his firearm. The facts of this case
are [****23] that Christen was in a shared
apartment with his two cohabitants and two other
guests. The circumstances were such that the jury
concluded that Christen was disorderly, and that he
[*P47] As a general rule, it is not illegal to operated or went armed with a firearm while he
possess a firearm. Similarly, it is generally not was intoxicated and that he was not acting in selfillegal to be intoxicated in one's own home. defense.
Furthermore, the right to self-defense is "most
acute" in the home. Heller, 554 U.S. at 628. [*P50] Consequently, we are not persuaded that
However, Christen's assertion that the Second Wis. Stat. § 941.20(1)(b) strikes at Christen's
to
Amendment allows him to possess a firearm in his fundamental core Second Amendment right
selfown home even though he is at the point of possess or [**731] carry a weapon for
This
intoxication, regardless of whether he is acting in defense, pursuant to the Second Amendment.
militates against applying strict scrutiny.
self-defense, misses the mark.
[*P48] Here, the jury had to conclude that
Christen was not merely consuming intoxicants in
his own [**730] home— —the jury had to
instead
was
Christen
that
conclude
intoxicated, [****22] which means "under the
influence of an intoxicant." "Under the influence of
an intoxicant" is a legal term in Wisconsin law that
requires, as the jury concluded, that "the
defendant's ability to handle a firearm was
materially impaired because of the consumption of
an alcoholic beverage." Wis. JI— —Criminal 1321,
at 1 (2019). For the jury to find that someone was
"under the influence," the State must establish

110

ii. Wisconsin Stat. § 941.20(1)(b) does not impose
a severe burden on Christen's core Second
Amendment right.
[*P51] Furthermore, Wis. Stat. § 941.20(1)(b) has
limited application. The statute does not strip the
intoxicated individual of the right to self-defense-the statute does not strip firearm owners of the
right to own and possess the firearm. Section
941.20(1)(6) also does not prohibit a firearm from
being in a home or provide that the gun be rendered
inoperable if someone in the home is intoxicated.
Rather, it limits the circumstances under which the
lawful firearm owner may use or carry the firearm,

2021 WI 39, *P10; 396 Wis. 2d 705, **731; 958 N.W.2d 746, ***758; 2021 Wisc. LEXIS 59, ****23
specifically while intoxicated. But this restriction is
even more limited, as it does not apply when the
intoxicated individual uses or carries the firearm in
self-defense. Section 941.20(1)(b) sets forth a
limited [****24] restriction that imposes a slight
burden on the core right of the Second Amendment.
See Weber, 2020-Ohio-6832, 2020 WL 7635472, at
530 (concluding that the burden on Second
Amendment rights by an intoxicated use of a
firearm statute was "very slight"). Such a slight
burden counsels [***759] us to apply intermediate
scrutiny to Christen's challenge as well)'
Because Wis. Stat. §
[*P52] ["732]
at the core right of the
not
strike
941.20(1)(b) does
Second Amendment, due to the jury's determination
that Christen did not act in self-defense, and any
burden it does impose on that core right is slight in
this case, we conclude that Christen's as-applied
challenge to § 941.20(1)(b) requires the application
of intermediate scrutiny 12

related to an important governmental objective."
Roundtree, 395 Wis. 2d 94, 528.
[*1354] "[W]e recognize public safety generally,
and preventing gun violence specifically, as
important governmental objectives. Indeed,
blublic safety and the [**733] protection of
human life is a state interest of the highest order."
Id., 543 (quoting State v. Miller, 196 Wis. 2d 238,
249, 538 N.W.2d 573 (Ct. App. 1995)) (citations
omitted). Even more relevant to this case, the State
has a legitimate interest "in protecting people from
harm from the combination of firearms and
alcohol." Weber, 2020-Ohio-6832, 2020 WL
7635472, at 532; see also [****251 People v.
Wilder, 307 Mich. App. 546, 861 N.W.2d 645, 653
(Mich. Ct. App. 2014) ("The extreme danger posed
by a drunken person with a gun is real and cannot
be over emphasized.").

r1)55] Christen argues that Wis. Stat. §
941.20(1)(b) is not substantially related to these
b. Application of intermediate scrutiny
important governmental interests because the
statute criminalizes going armed while intoxicated
[*P53] "Pursuant to an intermediate scrutiny
which does not impact public safety. Specifically,
analysis, we ask whether a law is substantially
he asserts that the statute "does not require the
defendant Rol pull the trigger, or cause injury of
any sort, or even create a dangerous situation for
I I We note that numerous other courts have applied intermediate
Beyond these general arguments, Christen
scrutiny in challenges to regulations on firearms far more restrictive another."
explains that he was not engaged in any unlawful or
than the restriction that Wis. Stat. §. 941.20(I)(b) may impose. See
765
N.W.2d
952
94,
2d
Wis.
395
1,
WI
2021
Roundtree,
e.g.,
uncommon behaviors. Rather, "he merely had a few
(applying intermediate scrutiny to a complete prohibition on firearm
drinks over the course of an evening" and was
possession by convicted felons); Stimmel v. Sessions, 879 F.3d 198,
himself, despite the jury's conclusion that
206 (6th Cir. 2018) (applying intermediate scrutiny to a complete defending
prohibition on firearm possession by individuals previously he did not act in self-defense. As such, he claims
convicted of a misdemeanor crime of domestic violence); Mai, 952 that, based on the facts of his case, § 941.20(1)(b)
F.3d at 1115 (applying intermediate scrutiny to a complete
is not substantially related to the important
prohibition on firearm possession by mentally ill individuals).
governmental objectives identified.
t2 The determination that intermediate scrutiny is the appropriate
level of scrutiny is consistent with other courts that have addressed a
statute similar to Wis. Stat. § 941.20(1)(b). See. e.g., Weber 2020Ohio-6832, 2020 WL 7635472, at 531; People v. Deroche, 299
Mich. App. 301, 829 N.W.2d 891, 897 (Mich. Ct. App. 2013). Our
conclusion does not, however, exclude the possibility that another
level of scrutiny could apply to a different statute or under different
facts. See Heller, 554 U.S. at 628 n.27 (leaving open the question of
the appropriate level of heightened scrutiny); United States v.
Manzarella, 614 F.3d 85, 96 (3d Cir. 2010) (noting that strict
scrutiny may apply to a Second Amendment challenge depending on
the facts and circumstances of the challenge).

111

[*P56] We disagree. Wisconsin Stat. §
941.20(1)(13) is substantially related to the
important interest of "protecting people from harm
from the combination of firearms [***760] and
alcohol." Weber, 2020-Ohio-6832, 2020 WL
7635472, at 532.
[*1)57] The statute criminalizes operating or going
armed with a firearm only while the individual is

2021 WI 39, *P10; 396 Wis. 2d 705, **733; 958 N.W.2d 746, ***760; 2021 Wisc. LEXIS 59, ****25
"under the influence of an intoxicant." Wis. Stat. §
941.20(1)(b). [**734] The phrase "under the
influence of [****261 an intoxicant" is satisfied
only when "the defendant's ability to handle a
firearm was materially impaired because of
consumption of an alcoholic beverage." Wis. JI- Criminal 1321, at 1 (2019). As the Ohio
Supreme Court aptly explained, "[w]hen an
intoxicated person carries or uses a gun, either at
home or outside the home, the impairment of
cognitive functions and motor skills can result in
harm to anyone around the intoxicated person and
even to the intoxicated person himself or herself."
Weber, 2020-Ohio-6832, 2020 WL 7635472, at
533. Even in the event that the firearm is unloaded,
there is still a danger that the individual will harm
the public. See 2020-Ohio-6832 at 5543-44
(explaining the danger that an unloaded firearm
may cause in the hands of an intoxicated
individual). Accordingly, § 941.20(1)(b) furthers
the important governmental interest of protecting
the public.

Beyond even a general risk of violence, "[s]tudies
show that there is a strong correlation between
heavy drinking and self-inflicted injury, including
suicide, from a firearm." Id. (citing Branas, Han &
Wiebe, Alcohol Use and Firearm Violence, 38
(2016)).
32, 36
Reviews
Epidemiologic
Horrifically, "[for men, deaths from alcoholrelated firearm violence equal those from alcoholrelated motor vehicle crashes." Id. (quoting Garen
Wintemute, Alcohol Misuse, Firearm Violence
Perpetration, and Public Policy in the United States,
79 Preventive Medicine 15 (2015)). These data
support a substantial relationship between
intoxicated use of firearms and public safety,
preventing gun violence, and the protection of
human life.

[*P59] Our case law provides examples of the
dangerous combination of alcohol and [***7611
firearms. See, e.g., Larson v. State, 86 Wis. 2d 187,
271 N.W.2d 647 (1978) (addressing a case of
homicide while intoxicated); Jones v. State, 70 Wis.
2d 41, 233 N.W.2d 430 (1975) (same); State v.
[*P58] The State points to cases from foreign Witkowski, 143 Wis. 2d 216, 420 N.W.2d 420
jurisdictions to support its argument that Wis. Stat. [**736] (Ct. App. 1988) (addressing a case of
be
§ 941.20(1)(b) is substantially related to public armed robbery while the defendant "appeared to
safety. Of those cases, we find State v. Weber from intoxicated").
Ohio the most persuasive.13 As the Ohio Supreme
[*P60] Therefore, the State has important
Court recognized, "Erlesearch shows that 'people
governmental interests in public safety, preventing
who abuse alcohol or illicit drugs are at an
gun violence, protecting human life, and protecting
increased risk of committing [**735] acts of
people from the harm the combination of firearms
violence." Id., 536 (quoting Webster [****27] &
and alcohol causes. The means the legislature chose
Vernick, Keeping Firearms from Drug and Alcohol
Abusers, 15 Injury Prevention 425 (2009))."

the State cites to the Court of Appeals of Ohio's decision
in Weber, the Ohio Supreme Court subsequently reviewed the Court
of Appeals of Ohio's decision. Weber, 2020-Ohio-6832, 2020 WL
7635472, at 51. The Ohio Supreme Court's decision was announced
after briefing was completed in this case. As such, we look to the
analysis and reasoning of the Ohio Supreme Court because the data
in that case are general and assist our inquiry in this case. Cf.
Roundtree, 395 Wis. 2d 94, ¶50 (citing studies from Kanter v. Barr,
919 F.3d 437, 449 (7th Cir. 2019), to support its conclusion that the
statute at issue was substantially related to an important

13 Although

governmental interest).
14 The

The victims of such violence are often a gun owner's family
members or the gun owner himself. For example, "[d]rug and
alcohol use by domestic abusers has been strongly linked with
the perpetration of fatal and non-fatal domestic violence."
[Webster & Vernick, Keeping Firearrns from Drug and Alcohol
Abusers, 15 Injury Prevention 425 (2009).] "[Ain
overwhelming proportion (70%) [****28] of [intimatepartner) homicide perpetrators were under the influence of
substances when the crime occurred, . . . and the use of alcohol
is a strong predictor of intimate terrorism of women." Darryl
W. Roberts, Intimate Partner Homicide: Relationships to
Alcohol and Firearms, 25 J.Contemp.Crim.Just. 67,70 (2009).
Weber, 2020-Ohio-6832, 2020 WL 7635472, at 536.

Ohio Supreme Court expounded on this statement:

112

2021 WI 39, *P10; 396 Wis. 2d 705, **736; 958 N.W.2d 746, ***761; 2021 Wisc. LEXIS 59,
to further these important objectives, Wis. Stat. § Accordingly, we apply intermediate scrutiny to
941.20(1)(b), is substantially related to the Christen's as-applied challenge. Because §
important governmental objectives. Indeed, "[i]t is 941.20(1)(b) is substantially related to the
difficult to understand how the government could important government objective of protecting
have attempted to further that interest in any other public safety, it survives intermediate scrutiny as
viable manner." Weber, 2020-Ohio-6832, 2020 WL applied to Christen.
7635472, at 539.
[*P64] Accordingly, we conclude that Christen's
[*P61] The specific facts of Christen's case do not as-applied challenge to Wis. Stat. § 941.20(1)(b)
cast doubt upon this conclusion. As we discussed fails. Therefore, we affirm.
above, the jury rejected Christen's claim that he was
By the Court.—The decision of the court of appeals
acting [****29] in self-defense. Christen does not
is affirmed.
supply or allege any other facts that would call into
question the constitutionality of the statute as Concur by: BRIAN HAGEDORN
applied to him. The specific facts of Christen's case
demonstrate why Wis. Stat. § 941.20(1)(b) is Concur
substantially related to public safety and preventing
gun violence. The jury found that Christen was so
intoxicated that he was "less able to exercise the [*P65] BRIAN HAGEDORN, J. (concurring).
clear judgment and steady hand necessary to handle The Second Amendment to the United States
a firearm." See Wis. II — —Criminal 1321, at 2 Constitution protects the individual right to keep
(2019). Christen threatened his roommates and and bear arms. This right is broad, but it does not
their guests numerous times. As he stated on the always prohibit the state from taking focused,
911 call, "[i]f someone comes through [his] door, prophylactic measures to protect against gunthey're getting a fucking face full of lead." The related violence. Earlier this term, I concluded in
studies and data noted above demonstrate that there dissent that the state did not meet its burden to
was a real risk that the combination of Christen's prove a substantial
between
relationship
intoxication and his firearms would cause harm to dispossessing a felon convicted of failing to pay
those around him. Thus, the facts of this case child support for 180 days and preventing gundemonstrate why [**737] § 941.20(1)(b) is related violence. ("738] See State v. Roundtree,
substantially related to public safety, preventing 2021 WI 1, 55105-71, [***762] 395 Wis. 2d 94,
gun violence, protecting human life, and protecting 952 N.W.2d 765 (Hagedorn, J., dissenting). This
people from the harm the combination of firearms case provides another opportunity for this court to
and alcohol causes.
explore the contours of the rights protected by the
Second Amendment. The court concludes— —and I
[*P62] Accordingly, we conclude that Christen's
Christen's
Mitchell
agree— —that [****31]
as-applied challenge to Wis. Stat. § 941.20(1)(b)
with a
armed
going
or
conviction for operating
fails.
firearm while intoxicated does not violate the
IV. CONCLUSION
Second Amendment. However, in my view, the
majority's analysis is insufficiently rooted in the
[*P63] As to Christen's as-applied challenge, we
original public meaning of the Second Amendment.
conclude Wis. Stat. § 941.20(1)(b) does not
Therefore, I reach the same underlying conclusion,
strike [****30] at the core right of the Second
but rest instead on the history of the Second
Amendment because he did not act in self-defense.
Amendment right as understood when adopted and
Moreover, we conclude that § 941.20(1)(b) does
incorporated against the states.
not severely burden his Second Amendment right.

113

2021 WI 39, *P10; 396 Wis. 2d 705, **738; 958 N.W.2d 746, ***762; 2021 Wisc. LEXIS 59, ****31

941.20(1)(b). Christen appealed the circuit court's
denial of his motion to dismiss, which the court of
[*P66] Christen's conviction stems from events appeals affirmed. State v. Christen, No.
that took place during the early-morning hours of 2019AP1767-CR, 2020 WI App 19, 391 Wis. 2d
February 3, 2018, in a Madison apartment he 650, 943 N.W.2d 357, unpublished slip op. (Wis.
shared with two roommates. Christen estimated Ct. App. Mar. 17, 2020). This court granted
that, over the course of the evening, he consumed Christen's petition for review.
four beers and one shot. After returning to his
apartment, Christen argued with one of his II. DISCUSSION
roommates and one of his roommate's friends. At [*P69] Wisconsin Stat. § 941.20(1)(b) provides
one point, Christen, who was in his bedroom, that a person who "[olperates or goes armed with
picked up a gun and "held it sideways towards the a [****33] firearm while he or she is under the
wall away from" his roommate's friend, prompting influence of an intoxicant" is guilty of a Class A
the friend to shut Christen's bedroom door.
misdemeanor. Put simply, § 941.20(1)(b)

I. BACKGROUND

Christen
intoxication.
armed
criminalizes
challenges the constitutionality of this provision as
applied to him. Therefore, we look to the specific
facts of his case, not to hypothetical or different
[**740] facts. See State v. Hamdan, 2003 WI 113,
543, 264 Wis. 2d 433, 665 N.W.2d 785. When
analyzing an as-applied challenge, it generally does
not matter whether the statute might have some
applications that are contrary to the Constitution
[***763] if the defendant's own conviction lacks a
constitutional defect. See State v. Wood, 2010 WI
17, 513, 323 Wis. 2d 321, 780 N.W.2d 63. An asapplied challenge therefore attacks the application
of the statute— —a conviction in this case— —
rather than the statute itself. See Serv. Emps.
Union, Loc. 1 v. Vos, 2020 WI 67, 537, 393 Wis.
[*P68] Christen was charged with pointing a 2d 38,946 N.W.2d 35.
firearm at another, operating or going armed with a
rP701 In my dissenting opinion in Roundtree,
firearm while intoxicated, and disorderly conduct.
2021 WI 1,395 Wis. 2d 94, n105-71, 952 N.W.2d
Christen moved the circuit court' to dismiss the
765 (Hagedorn, J., dissenting), I explained that the
second charge, arguing that a conviction under Wis.
original public meaning of the Second Amendment
Stat. § 941.20(1)(b) (2017-18)2 would violate his
should guide the constitutional analysis, and why
right to bear arms within his home. The circuit
the historical record is of particular import to this
court denied that motion, and a jury convicted him
inquiry. I begin with a brief summary of these
of disorderly conduct and operating or going armed
principles, then review the historical record, and
with a firearm while intoxicated under
finally, apply this to the facts of Christen's case.

[*P67] After that exchange, Christen began
recording a video with his cell phone. He
announced that he was going to the kitchen and
bringing a gun with him because he did not "trust
anybody in this house." Christen emerged from his
bedroom with a handgun [****32] tucked into his
waistband and went to the kitchen. The friend
Christen previously threatened disarmed him and
another friend disassembled the gun. Christen
[**739] retreated to his bedroom, where he
retrieved a shotgun and cocked it. From his
bedroom, Christen dialed 911 to report a stolen
firearm; police responded, and Christen was
arrested. The responding officer noted that Christen
bore several indicators of intoxication.

A. Principles of Interpretation
1 The Honorable Nicholas J. McNamara of the Dane County Circuit
Court presided.
2 A11 subsequent

references to the Wisconsin Statutes are to the 2017-

18 version.

114

PoP711 Under our Constitution, the people
declared that the government has no power to
regulate in certain areas, and therefore [****34] it

2021 WI 39, *P10; 396 Wis. 2d 705, **740; 958 N.W.2d 746, ***763; 2021 Wisc. LEXIS 59, ****34
may not criminalize conduct in those areas. See
Cohen v. California, 403 U.S. 15, 18-19, 91 S. Ct.
1780, 29 L. Ed. 2d 284 (1971); Roundtree, 2021
WI 1, 395 Wis. 2d 94, 5109, 952 N.W.2d 765
(Hagedorn, J., dissenting). Many of these limits are
found in the federal Constitution's Bill of Rightsamong them, the Second Amendment's
protection of the right "to keep and bear Arms."
U.S. Const. amend. II; McDonald v. City of
Chicago, 561 U.S. 742, 791, 130 S. Ct. 3020, 177
L. Ed. 2d 894 (2010).
[*P72] The primary interpretive tool in
constitutional analysis is the constitutional text,
informed by [**7411 its context and structure.
District of Columbia v. Heller, 554 U.S. 570, 57677, 128 S. Ct. 2783, 171 L. Ed. 2d 637 (2008); Vos,
393 Wis. 2d 38, 528. The Second Amendment says,
"A well regulated Militia, being necessary to the
security of a free State, the right of the people to
keep and bear Arms, shall not be infringed." U.S.
Const. amend. II. The text's reference to "the right
of the people" recognizes that the Second
Amendment "codified a pre-existing right" to keep
and bear arms, one already held by the people when
the Second Amendment was adopted. Heller, 554
U.S. at 592. The Second Amendment therefore
referenced a right with a preexisting scope and
substance, and gave it protection in our
fundamental law. Id.

historical record, "we can discern the principal
themes" that inform what the public understood the
provision to mean when it was adopted. Young,
, 2021 U.S. App. LEXIS 8571, [WL]
F.3d
at *13; Roundtree, 2021 WI 1, 395 Wis. 2d 94,
5114, 952 N.W.2d 765 (Hagedorn, J., dissenting).
"The meaning of the text as enlightened by the
historical record is no less binding because the
historical inquiry is still directed toward
discovering what the words were understood to
convey when written." Roundtree, 2021 WI 1, 395
Wis. 2d 94, ¶114, 952 N.W.2d 765 (Hagedorn, J.,
dissenting). Therefore, our task in this case is to
[**742] study the historical record to learn
whether the right protected by the Second
Amendment protects armed intoxication.
B. Armed Intoxication

[*P74] The Second Amendment protects the
longstanding, natural right to self-defense,
[***764] but even as originally understood, this
core right was not unlimited in scope; some
regulation was permitted. Heller, 554 U.S. at 595;
Roundtree, 2021 WI 1, 395 Wis. 2d 94, 55125, 129,
952 N.W.2d 765 (Hagedorn, J., dissenting). When
the Second Amendment was adopted, and later
incorporated against the states ,3 laws restricting the
right to keep and bear arms were rare, but did exist.
See McDonald, 561 U.S. at 770-77. "Those that
existed were largely aimed at persons or classes of
people who might violently take up arms against
[*P73] The scope and substance of a
the government in rebellion, or at persons who
constitutional right articulated in the text may be
informed by the historical record. Vos, 393 Wis. 2d
38, 528 n.10. In the Second Amendment context, it
is not immediately apparent, more than two "Constitutional rights are enshrined with the scope they were
District of
centuries removed from its enactment, precisely understood to have when the people adopted them."
171 L.
2783,
Ct.
S.
128
Columbia v. Heller. 554 U.S. 570, 634-35,
what fell within the full reach of "the right of the Ed. al 637 (2008). The Second Amendment was ratified in 1791, but
people to keep and bear Arms," nor whether and when analyzing the Second Amendment's meaning as incorporated
when the government may enact laws touching against the states under the Fourteenth Amendment, "the focus of the
upon firearm possession, carrying, and [****35] original-meaning inquiry is carried forward in time; the Second
depends on how the
2021 U.S. App. Amendment's scope as a limitation on the States
F.3d
use. Young v. Hawaii,
right was understood when the Fourteenth Amendment was ratified."
LEXIS 8571, 2021 WL 1114180, at *13 (9th Cir. Ezell v. City of Chicago, 651 F.3d 684, 702 (7th Cir. 2011) (citing
2021) (en banc); Roundtree, 2021 WI 1, 395 Wis. McDonald v. City of Chicago, 561 U.S. 742, 770-77, 130 S. Ct.
2d 94, 5122, 952 N.W.2d 765 (Hagedorn, J., 3020, 177 L. Ed. 2d 894 (2010)). Therefore, our study of the Second
Amendment's historical record includes both the Founding and
dissenting). Nevertheless, by looking to the
Reconstruction Eras.

115

2021 WI 39, *P10; 396 Wis. 2d 705, **742; 958 N.W.2d 746, ***764; 2021 Wisc. LEXIS 59, ****35
posed a more immediate [****36] danger to the law provided:
public." Roundtree, 2021 WI 1, 395 Wis. 2d 94,
[**744] If any person having or carrying any
5129, 952 N.W.2d 765 (Hagedorn, J., dissenting).
dirk, dirk knife, Bowie knife, sword, sword
law
a
cane, or other deadly weapon, shall, in the
had
[*P75] It appears that no jurisdiction
presence of three or more persons, exhibit the
criminalizing armed intoxication on its books when
same in a rude, [***765] angry and
the Second Amendment was adopted in 1791. See
threatening manner, not in necessary self585, 2020State V. [**7431 Weber, N.E.3d
defense, or shall in any manner unlawfully use
Ohio-6832, 2020 WL 7635472 (Ohio 2020)
the same in any fight or quarrel, the person or
that
laws
(DeWine, J., concurring) ("It seems clear
persons so offending, upon conviction thereof
identical to R.C. 2923.15 [criminalizing armed
in the circuit or criminal court of the proper
intoxication] did not exist at the time of the
county, shall be fined in a sum not exceeding
founding."). However, the historical record
five hundred dollars, and be imprisoned not
suggests states could permissibly curtail the
exceeding three months.8 ]
reckless handling of firearms and recognized the
aggravating nature of intoxication, particularly
An 1854 Washington law followed suit, making it a
when paired with weapons.
crime to "in a rude, angry, or threatening manner,
[*P76] One set of laws along these lines in a crowd of two or more persons, exhibit any
prohibited firing a gun under circumstances where pistol, bowie knife, or other dangerous weapon."9
doing so would be reckless. A 1655 Virginia law And an 1855 California law similarly made it
required anyone who fired a gun while intoxicated illegal to "draw or exhibit any of said deadly
to forfeit 100 pounds of tobacco.4 A New York law weapons in a rude, angry and threatening manner,
or
from the same era prohibited firing guns on New not in necessary self-defense . . . in any fight
Year's and May Days, recognizing the "deplorable quarrel."1° During the 1860s and 70s, several more
accidents such as wounding" caused by the drunken states adopted similar laws criminalizing
handling of weapons on those days.5 A 1774 brandishing a weapon when not necessary
Idaho in
Pennsylvania law similarly prohibited firing a gun for [****38] self-defense, including:
in
Arkansas
1867,
without reason around New Year's.6 And a 1785 1864, Texas in 1866, Arizona in
New York law did the same for "the eve of the last 1868, Nevada in 1873, and Indiana in 1875.11
day of December, and the first and second days of
January ."7
[*P77] In addition, stretching back to 1840, states
have r***371 in various ways forbidden the
reckless brandishing of a weapon when not
necessary for self-defense. An 1840 Mississippi
4

Volney Erskine Howard, The Statutes of the State of Mississippi of
a Public and General Nature, with the Constitutions of the United
States and of this State: And an Appendix Containing Acts of
Congress Affecting Land Titles, Naturalization, and a Manual for
Clerks, Sheriffs and Justices of the Peace 676 (1840).

Act of March 10,1655,1655 Va. Laws 401-02.

3 Ordinance of The Director General and Council of New Netherland
to Prevent Firing Of Guns, Planting May Poles and Other
Irregularities Within This Province, 1665 N.Y. Laws 205.

Act to Suppress the Disorderly Practice of Firing Guns, etc., on
the Times Therein Mentioned, 1759-1776 Pa. Acts 421, § 1.

6 An

An Act to Prevent the Firing of Guns and other Fire Arms within
this State on Certain Days Therein Mentioned, 1784-1785 N.Y.
Laws 152.

7

116

An Act Relative to Crimes and Punishments, and Proceedings in
Criminal Cases, 1854 Wash. Sess. Law 80, ch. 2, § 30.

"

'° William H.R. Wood, Digest of the Laws of California: Containing
All Laws of a General Characler Which were in Force on the First
Day of January, 1858 334 (1861).
"An Act Concerning Crimes and Punishments, 1864 Id. Sess. Laws
304, * 40; George Washington Paschal, 2 A Digest of the Laws of
Texas: Containing Laws in Force, and the Repealed Laws on Which
Rights Rest 1321 (1873); An Act to Prevent the Improper Use of
Deadly Weapons and the Indiscriminate Use of Fire Arms in the
Towns and Villages of the Territory, 1867 Ariz. Sess. Laws 21-22, §

2021 WI 39, *P78; 396 Wis. 2d 705, **744; 958 N.W.2d 746, ***765; 2021 Wisc. LEXIS 59, ****38
[*P78] [**745] It is also clear that founding-era
governments had broad power to regulate
intoxication, even when doing so might impinge on
certain fundamental rights. One early Ohio
territorial statute provided that if "any person by
being intoxicated, shall be found making or
exciting any noise, contention or disturbance, at
any tavern, court, election, or other meeting" that
person could be fined or imprisoned until "such
court, election or meeting is over."12 Another law,
an 1811 Maryland statute, forbade selling
"spirituous or fermented liquors" on election days.
Cearfoss v. State, 42 Md. 403, 406 (1875).
"Simply [****39] because the right to vote and the
right to assemble were considered fundamental
rights did not mean that the government could not
restrain someone from exercising those rights while
they were intoxicated." Weber, N.E.3d ___, 2020Ohio-6832, 5107 (DeWine, J., concurring). So too,
it seems, with the fundamental right protected
under the Second Amendment.

found within the limits of this state carrying on
his person a pistol, bowie-knife, dirk, or other
deadly weapon, shall be subject to arrest upon
charge of misdemeanor, and upon conviction
shall be fined a sum not exceeding one hundred
dollars, or by [****40] imprisonment in the
county jail not exceeding three months, or both,
at the discretion of the court.° ]
This law prohibits carrying a firearm while "under
the influence of intoxicating drink" — —precisely
the conduct criminalized under Wis. Stat.
941.20(1)(b). The temporal connection between
this prohibition on armed intoxication and the
Fourteenth Amendment's ratification is strong
evidence that the Second Amendment, particularly
as incorporated against the states, was not
originally understood to preclude states from
criminalizing armed intoxication.
[4380] An 1878 Mississippi law is also insightful:
It shall not be lawful for any person to sell to
any minor or person intoxicated, knowing him
to be a minor or in a state of intoxication, any
weapon of the kind or description in the first
section of this Act described [which included
pistols], or any pistol cartridge, on any
conviction shall be punished by a fine [**747]
not exceeding two hundred dollars, and if the
fine and costs are not paid, be condemned to
hard labor under the direction of the board of
supervisors or of the court, not exceeding six
months .' 4

[*P79] [**7461 The Reconstruction Era presents
the most direct evidence that laws prohibiting
[***766] armed intoxication are permissible under
the Second Amendment. In 1868, the same year the
Fourteenth Amendment was ratified, Kansas
adopted the following law:
Any person who is not engaged in any
legitimate business, any person under the
influence of intoxicating drink, and any person
who has ever borne arms against the
government of the United States, who shall be
1; 1868 Ark. Acts 218, §§ 12-13; An Act to Amend an Act Entitled
"An Act Concerning Crimes and Punishments," 1873 Nev. Stat. 118,
ch. 62, § 1; An Act Defining Certain Misdemeanors, and Prescribing
Penalties Therefore, 1875 Ind. Acts 62, § 1.
These and other relevant laws can be accessed via the Repository of
Historical Gun Laws at the Duke Center for Firearms Law.
https://firearmslaw .duke.eduirepository/search-the-repository/.
12 Salmon P. Chase, Statutes of Ohio and of the Northwestern
Territory, Adopted or Enacted from 1788 to 1833 Incluive:
Toeether with the Ordinance of 1787: the Constitutions of Ohio and
of the United States, and Various Public Instruments and Acts of
Congress 503 (1833).

117

This law attempted to limit the reckless handling of
firearms by forbidding the sale of firearms to
minors or intoxicated [****411 individuals. If
states could criminalize selling arms to intoxicated
individuals, the same rationale would support the
conclusion that states could also temporarily
prohibit intoxicated individuals from handling

General Statutes of the State of Kansas 353 (1897) (emphasis
added).

13 2

14 An Act to Prevent the Carrying of Concealed Weapons and for
Other Purposes, 1878 Miss. Laws 175, § 2.

2021 WI 39, *P78; 396 Wis. 2d 705, "747; 958 N.W.2d 746, ***766; 2021 Wisc. LEXIS 59, ****41

before us is straightforward. The Second
Amendment, while protecting the right to carry a
[*P81] Viewing this evidence as a whole, the right firearm generally, does not protect armed
to keep and bear arms has never prevented intoxication— —at least not under the facts of this
governments from enacting reasonable regulations case.
to curtail the reckless handling of firearms, such as
prohibitions on firing in a crowded area or [*P84] A more nuanced analysis may be required
brandishing a firearm in ways dangerous to others if Christen was truly acting in self-defense. This is
and not in self-defense. And the unique danger of so because whatever else the Second Amendment
intoxication when combined with potentially means, it "surely elevates above all other interests
deadly force has long been acknowledged. the right of law-abiding, responsible citizens to use
Moreover, the founding-era historical record arms in defense of hearth and home." Heller, 554
suggests, and the reconstruction-era evidence U.S. at 635. Christen invokes self-defense, but the
confirms, that one way the government could facts simply do not support it. None of the four
curtail the reckless handling of firearms was by people in the apartment when Christen took up
criminalizing armed intoxication. Therefore, at arms threatened to physically harm him. It seems
least as a general matter, laws forbidding armed that it is Christen who was the source of most of the
intoxication do not violate the Second Amendment discord that occurred that [**749] evening.
Moreover, the jury rejected the statutory selfright to keep and bear arms.
defense argument proffered by Christen.'6 In short,
[*P82] In view of this historical evidence, we Christen's right to defend himself was not
need not employ an additional implementing implicated. Under these facts, the Second
doctrine such as intermediate or strict scrutiny to Amendment does not protect Christen's right to
conclude that the Wis. Stat. § 941.20(1)(b) is not take up arms notwithstanding his intoxication.
contrary to the Second Amendment's original
public meaning in this context. [**748] [*P85] Therefore, Christen's [****43] conviction
This [****42] type of law fits comfortably within under Wis. Stat. § 941.20(1)(b) is consistent with
the historical record, [***7671 and therefore no the Second Amendment and his as-applied
challenge fails. For these reasons, I respectfully
additional layer of legal analysis is necessary.' 5
concur.
C. Application
Dissent by: REBECCA GRASSL BRADLEY
[*P83] With this backdrop, resolution of the case
guns.

Dissent
15 The majority concludes intermediate scrutiny governs this
constitutional inquiry, but it conspicuously declines to examine
whether the Second Amendment's original understanding supports
application of that framework in this context. See majority op., ”3839, 52. As the Ninth Circuit unanimously agreed, this approach runs
contrary to Heller's explicit direction that the Second Amendment be
interpreted in light of its historical record. Young v. Hawaii, F.3d
_,2021 U.S. App. LEXIS 8571, 2021 WL 1114180, at *12 (9th Cir.
2021) (en bane) ("We do not think we can avoid the historical
record. Heller relied heavily on history, and we do not think that it
exhausted all subsequent need to confront our history in resolving
challenges to other firearm regulations,"); 2021 U.S. App. LEXIS
8571, [WI-) at *50-62 (O'Scannlain, J., dissenting) (following
"Heller's historical imperative" to analyze the Second Amendment's
historical record).

118

[*P861 REBECCA GRASSL BRADLEY, J.
(dissenting). The majority persists in ignoring the
text and history of the Second Amendment, flouting

''The jury was instructed on the statutory privilege of self-defense
and returned a guilty verdict. This means the jury did not believe
Christen satisfied the statutory prerequisites for self-defense codified
in Wis. Stat. § 939.48. As the dissent points out, the Second
Amendment right to self-defense is more expansive than the
statutory privilege. Even so, the facts of this case do not lead us to
those waters.

2021 WI 39, *P78; 396 Wis. 2d 705, **749; 958 N.W.2d 746, ***767; 2021 Wisc. LEXIS 59, ****43
controlling United States Supreme Court
precedent— —District of Columbia v. Heller, 554
U.S. 570, 128 S. Ct. 2783, 171 L. Ed. 2d 637
(2008)-- by doing exactly what Heller
renounced. Although Heller "expressly rejected the
argument that the scope of the Second Amendment
right should be determined by judicial interest
balancing," McDonald v. City of Chicago, Ill., 561
U.S. 742, 785, 130 S. Ct. 3020, 177 L. Ed. 2d 894
(2010) (citing Heller, 554 U.S. at 633-35), the
majority nevertheless concludes that "important
governmental interests" override one of America's
most cherished rights. "Constitutional rights are
enshrined with the scope they were understood to
have when the people adopted them, whether or not
future legislatures or (yes) even future judges think
that scope too broad." Heller, 554 U.S. at 634-35.
rP871 [**7501 The majority also misapprehends
the difference between operating a firearm in selfdefense and going armed in case of [***768]
confrontation. The fact that Christen did not act in
self-defense has nothing to do with his Second
Amendment right to go armed in case of
confrontation. While many readers may not be
troubled by the outcome of this case in light of
toward
behavior
threatening
Christen's
[****44]
roommates and their guests, the
his
majority's decision erodes a fundamental freedom,
the "true palladium of liberty" for all Americans.
St. George Tucker, Blackstone's Commentaries 143
(1803).
[*1188] Examining "both text and history" of the
Second Amendment is necessary to understand the
original public meaning of the "individual right to
keep and bear arms." Heller, 554 U.S. at 595. The
majority neglects to review either. Textually, the
individual right to keep and bear arms "guarantee[s]
the individual right to possess and carry weapons in
case of confrontation." Id. at 592. Historically,
legislatures did not limit the ability of individuals to
carry firearms while under the influence of an
intoxicant. Because "the need for defense of self,
family, and property is most acute' in the home[,]"
McDonald, 561 U.S. at 767 (quoting Heller, 554

U.S. at 628), a law prohibiting individuals from
cannot
while
armed
intoxicated
going
who
to
be
an
individual
lly
applied
constitutiona
goes armed in his own home. Wisconsin Stat. §
941.20(1)(b) violated Christen's right to carry a
firearm in his own home in case of confrontation,
notwithstanding his intoxication. I respectfully
dissent.

[**751] I. The Majority Applies an Incorrect
Analytical Framework.
A. Heller's Holding and Analytical Framework
[*P89] The Second Amendment provides:
A well regulated Militia, being [****451
necessary to the security of a free State, the
right of the people to keep and bear Arms, shall
not be infringed.
U.S. Const. amend. II. Over a decade ago, the
United States Supreme Court issued a decision in a
"landmark case on the meaning of the Second
Amendment," "writ[ing] on a slate that was almost
clean" considering the dearth of Second
Amendment jurisprudence from our nation's
highest court. Lawrence B. Solum, District of
Columbia v. Heller and Originalism, 103 Nw. U. L.
Rev. 923, 925, 980 (2009). In Heller, the Court
held, "on the basis of both text and history, that the
Second Amendment conferred an individual right
to keep and bear arms" — —a right which "belongs
to all Americans." Heller, 554 U.S. at 581, 595. In
doing so, the Court "dispelled the prevalent, but
historically ignorant notion that the Second
Amendment protects merely a collective, militia
member's right." State v. Roundtree, 2021 WI 1,
565, 395 Wis. 2d 94, 952 N.W.2d 765 (Rebecca
Grassi Bradley, J., dissenting). Although the Court
wrote that the Second Amendment "conferred" the
right, the Court clarified that "[t]he very text of the
Second Amendment implicitly recognizes the preexistence of the right and declares only that it 'shall
not be infringed." Heller, 554 U.S. at 592
(emphasis added). Like other rights protected by

119

2021 WI 39, *P78; 396 Wis. 2d 705, **751; 958 N.W.2d 746, ***768; 2021 Wisc. LEXIS 59, ****45

the Constitution, the right to keep and bear arms "is confirmed by the historical background of the
not a right granted by the Constitution. Neither is it Second Amendment." Id. at 592 (emphasis added).
that
upon
in
dependent
any
manner
instrument [****46] for its existence." [**752] [*P92] The Court then explored how the scope of
the Second Amendment was understood during the
I. (quoted source omitted). Instead, the Framers
"codified a pre-existing right" — —one that founding era. The Court first examined
of four states— —Pennsylvania,
"elevates above all other interests the right of law- constitutions
—
abiding, responsible citizens to use arms in defense Vermont, North Carolina, and Massachusetts—
that predated the federal Constitution. Each state
of hearth and home." Id. at 635.
adopted language analogous to the Second
[*P90] But Heller did more than just confirm that Amendment regarding the right to bear arms.
the right to keep and bear arms is retained According to the Court, "the most likely reading of
individually. It also set forth the proper analytical all four of these pre-Second Amendment state
framework for courts [***769] to consider Second constitutional provisions is that they secured an
Amendment inquiries. In particular, the Heller individual right to bear arms for defensive
Court arrived at its seminal holding by purposes." Id. at 602. Post-ratification commentary
substantively analyzing the "text and history" of the supports this conclusion. Similar to William
Second Amendment's "operative clause": "the right Blackstone, St. George Tucker understood the right
of the people to keep and bears Arms." I Id. at 595 to bear arms as "the palladium of liberty." Id. at 606
(citing 2 St. George Tucker, Blackstone's
(emphasis added).
Commentaries 143 (1803)). Tucker declared "[t]he
[*P91] The Court determined that the phrase "the right to self defence is the first law of nature: in
people" — —as used in the First Amendment, the most governments it has been the study of rulers to
Second Amendment, the Fourth Amendment, and confine the right within the narrowest [****481
elsewhere in the Constitution— —"unambiguously limits possible. Wherever standing armies are kept
refers to all members of the political community, up, and the right of the people to keep and bear
not an unspecified subset." Id. at 580. After arms is, under any colour or pretext whatsoever,
ascertaining the holder of the right— —"the prohibited, liberty, if not already annihilated, is on
people" — —the Court turned to its substance. The the brink of destruction." Id. (citing Tucker, infra,
phrase "to keep [arms]" most reasonably means to at 300). Other prominent scholars during the
"to have weapons" and the phrase "to bear arms" founding era— —from William Rawle to Joseph
means "to carry arms." Id. at 581-84. "The 18th- Story to preeminent abolitionists— —understood
century meaning [of these phrases] is no different the Second Amendment in a similar light. Id. at
from the meaning today." Id. at 581. Drawing upon 606-10. With only a single exception, all posta wealth of 18th century dictionaries [****47] and ratification commentators construed the Second
Blackstone's Amendment "to protect an individual right
William
(e.g.,
authorities
Commentaries on the Laws of England), the Court unconnected [**754] with militia services,"
declared these clauses "guarantee the individual particularly in regard to confrontation and selfright to possess and carry weapons [**753] in case defense. Id. at 605-10.2
of confrontation" — —a conclusion "strongly
[*P93] The Court then applied its textual
Drawing upon founding-era sources, the Court also analyzed the
Second Amendment's "prefatory clause," which provides: "A well
regulated Militia, being necessary to the security of a free State."
District of Columbia v. Heller, 554 U.S. 570, 595-98, 128 S. Ct.
2783, 171 L. Ed. 2d 637 (2008).

120

Court also extensively examined pre-civil war cases, post-civil
war legislation, and post-civil war commentary to document the
historical foundation for the Second Amendment. Heller, 554 U.S. at
610-19.

2 The

2021 WI 39, *P78; 396 Wis. 2d 705, **754; 958 N.W.2d 746, ***769; 2021 Wisc. LEXIS 59, ****48

interpretation and historical study to the [***770]
particular restriction before the Court: the District
of Columbia's ban on firearms, which the Court
concluded was unconstitutional. Specifically, the
Court determined that "the District's ban on
handgun possession in the home violates the
Second Amendment, as does its prohibition against
rendering any lawful firearm in the home operable
for the purpose of immediate self-defense." Id. at
635. "Assuming that Heller is not disqualified from
the exercise of Second Amendment rights,"
concluded the Court, "the District must permit him
to register his [****49] handgun and issue him a
license to carry it in the home." Id.
[*1)94] The Heller Court was exhaustive in its
historical research into the meaning of the Second
Amendment. In considering the District of
Columbia's firearm ban, at no point did the Court
weigh the interests of the government against the
Constitution's clear language, nor did it undertake
the judicially-invented intermediate or strict
scrutiny analysis preferred by many lower courts.
Instead, it examined the text and history of the
Second Amendment, asking whether the statute
violated the original public meaning of the right to
keep and bear arms. In doing so, the Court
prescribed the proper method of interpretation for
resolving challenges under the Second Amendment.

upon. A constitutional guarantee subject to future
judges' assessments of its usefulness is no
constitutional guarantee at all." Heller, 554 U.S. at
634.
r1)961 Heller unequivocally superseded judicial
balancing tests with an analysis of whether the
original public meaning of the Second Amendment
text, in the context of the history and tradition
enveloping the right, would support the regulation
or restriction challenged in a particular case. As
then-Judge Brett Kavanaugh confirmed, "Heller
and McDonald leave little doubt that courts are to
assess gun bans and regulations based on text,
history, and tradition, not by a balancing test such
as strict or intermediate scrutiny." Heller v. District
of Columbia, 670 F.3d 1244, 1271, 399 U.S. App.
D.C. 314 (D.C. Cir. 2011) (Kavanaugh, J.,
dissenting). And for good reason: "the Heller test
[is] more determinate and 'much less subjective'
because 'it depends upon a body of evidence
susceptible of reasoned analysis rather than a
variety of vague ethico-political First Principles
whose combined conclusion can be found to point
in any direction the judges favor." Id. at 1275
[**7561 (Kavanaugh, J., dissenting) (quoting
McDonald, 561 U.S. at 804 (Scalia, J.,
concurring)).

[*P95] In employing this framework, the Heller
Court decidedly rejected the sort of interestbalancing [**755] tests the majority applies in this
case. As the Court explained, the Second
Amendment is "the very product of an interest
balancing by the people." Id. at 635 (emphasis
added). Just two years later, the Court reiterated
this point, noting that Heller "expressly rejected the
argument that the scope of the Second Amendment

this
conducting
While
[*P97]
"it
difficult,"
be
"historical [****51] analysis can
is the best means available in an imperfect world"
and avoids "intrud[ing] . . . upon the democratic
process." McDonald, 561 U.S. at 804 (Scalia, J.,
concurring) (emphasis in original). The Court
"based [Heller] on the scope of the right to keep
and bear arms as it was understood at the time of
the adoption of the Second
[***771.1
Amendment." New York State Rifle & Pistol Ass'n,

right should be determined by judicial interest

Inc. v. City of New York, New York,

balancing[.]" McDonald, 561 U.S. at 785 (citing
Heller, 554 U.S. at 633-35). "The very enumeration
of the right takes out of the hands of governmentof
Branch
Third
the
-even [****50]
Government— —the power to decide on a case-bycase basis whether the right is really worth insisting

140 S. Ct. 1525, 1540, 206 L. Ed. 2d 798 (2020)
(Alito, J., joined by Thomas and Gorsuch, JJ.,
dissenting) (emphasis added). "Because history
provided no support for laws like the District [of
Columbia's]," the law at issue in Heller violated the
individual right protected by the Second

121

U.S.

2021 WI 39, *P78; 396 Wis. 2d 705, **756; 958 N.W.2d 746, ***771; 2021 Wisc. LEX1S 59, ****51

Amendment. Id. (Au , J., joined by Thomas and
Gorsuch, JJ., dissenting) (emphasis added).
B. The Majority Eschews Heller's Framework.
[*1198] Troublingly, although the United States
Supreme Court has established a Second
Amendment analytical framework rooted in text,
history, and tradition, "many courts have resisted
[the Court's] decisions in Heller and McDonald."
Rogers v. Grewal, U.S. ____, 140 S. Ct. 1865, 1866,
207 L. Ed. 2d 1059 (2020) (denying petition for
writ of certiorari) (Thomas, J., dissenting). "Instead
of following the guidance provided in Heller, these
courts minimized that decision's framework. They
then 'filled' the self-created 'analytical vacuum' with
a 'two-step inquiry' that incorporates tiers of
scrutiny on a sliding [****52] scale." Id. (Thomas,
J., dissenting) (internal quotations and citations
omitted). "Under this test, courts first ask 'whether
the challenged law burdens [**757] conduct
protected by the Second Amendment. If so, courts
proceed to the second step— — determining the
appropriate level of scrutiny," applying either
intermediate or strict scrutiny. Id. at 1867 (Thomas,
J., dissenting).

The two-step test applied by the majority in this
case never takes up the "critical tools" of Heller's
originalist and textualist [****53] approach,
favoring Justice Stephen Breyer's outcome-oriented
dissent in Heller instead. Rather than ascertaining
the original public meaning of the Second
Amendment, Justice Breyer advocated "simply
adopt[ing] . . . an interest-balancing inquiry
explicitly," which would ask "whether [a] statute
burdens a protected interest in a way or to an extent
that is out of proportion to the statute's salutary
effects upon other important governmental
interests." Heller, 554 U.S. at 689-90 (Breyer, J.,
dissenting). The fact that both federal and state
[**758] courts, including our own, have embraced
Heller's dissent does not make it lawful. See, e.g.,
Kanter v. Barr, 919 F.3d 437 (7th Cir. 2019); State
Not only
v. Weber, 2020-Ohio-6832, N.E.3d
the law
of
afoul
run
test
two-step
the
does
pronounced by the United States Supreme Court, it
is antithetical to our duty to protect the people's
rights as "established by a constitutional history
formed by democratic decisions." McDonald, 561
U.S. at 805 (Scalia, J., concurring). The people
should be alarmed that their constitutionallyguaranteed rights may be infringed whenever a
majority of judges on a reviewing court quite
subjectively decides the "salutary [***772]
effects" of a regulation outweigh them, as the
majority does in this case.

[*1)99] This is precisely the two-step process the
majority of this court erroneously follows in the
case before us. $ee majority op., 534. This "twostep inquiry" leads the majority to conclude that
Wis. Stat. § 941.20(1)(b)--Wisconsin's law
prohibiting individuals from going armed while [V101] The majority's two-step approach is not
is
intoxicated— —may be constitutionally applied to only wrong,3 its application in this [****54] case
Christen in his own home. Using this "entirely decidedly haphazard. The majority conducts a
made up" judicial balancing test contravenes Heller
and McDonald. Rogers, 140 S. Ct. at 1867
(Thomas, J., dissenting).
3 The right to keep and bear arms is a "species of right we
[*P100] "The critical tool of constitutional
interpretation in this area is examination of a
variety of legal and other sources to determine the
public understanding of a legal text in the period
after its enactment or ratification." Binderup v.
Att'y Gen. United States of Am., 836 F.3d 336, 362
(3d Cir. 2016) (Hardiman, J., concurring)
(emphasis in original) (internal quotations omitted).

denominate as fundamental." State v. Roundtree, 2021 WI 1, 572,
395 Wis. 2d 94, 952 N.W.2d 765 (Rebecca Grass! Bradley, J.,
dissenting) (quoting Wisconsin Carry, Inc. v. City of Madison, 2017
WI 19, 59, 373 Wis. 2d 543, 892 N.W.2d 233). If a statute restricts a
fundamental right, this court applies strict scrutiny review. Id., 573
(citing Mayo v Wisconsin Injured Patients 84 Families Comp. Fund,
2018 WI 78, 28, 383 Wis. 2d 1,914 N.W.2d 678). Accordingly, if
this court insists on applying a judicial balancing test in reviewing a
statute restricting the right to keep and bear arms (notwithstanding
Heller's contrary direction), the intermediate scrutiny the majority
applies in Christen's case is in error.

122

2021 WI 39, *P78; 396 Wis. 2d 705, **758; 958 N.W.2d 746, ***772; 2021 Wisc. LEXIS 59, ****54

meager review of the first step— —that is, whether
Wis. Stat. § 941.20(1)(b) burdens conduct protected
by the Second Amendment. Confusingly, the
majority concludes the statute "does not strike at
the core right of the Second Amendment" but in the
next sentence contradicts itself, saying the statute
"does not severely burden [that] [**759] right."
Majority op., 553, 63. Logically, if a right is not
even implicated, it cannot be burdened. Rather than
engaging in what it acknowledges should be "a
textual and historical inquiry" the majority instead
skips to the second step, employing intermediate
scrutiny in order to elevate "important
governmental objectives" over a fundamental
individual right. $ee majority op., 13536, 39, 60. It
selects the wrong test and then applies only part of
it. The majority's decision to employ means-end
scrutiny— —abandoning any meaningful inquiry
into the protections afforded to the people under the
Second Amendment because, in its mind, the
historical record is "debatable" — — lends the
majority a license to declare the meaning of the
Constitution's "list of protected rights" as "whatever
[it] wish[es] it to be." McDonald, 561 U.S. at 805
(Scalia, J., concurring). Under the majority's
analysis
Amendment
Second
approach,
becomes [****55] a "system in which . . . judges
always get their way": if the court's "balancing"
weighs in favor of stripping individuals of
protected rights, then so it shall be. Id. (Scalia, J.,
concurring). Ungrounded in text or history, the
majority's approach subjects a fundamental
constitutional right to the will, rather than the
judgment, of the judiciary.

558 (quoted source omitted). Because the results
[**760] of social science studies are unavoidably
imbued with the biases of their authors and their
interpretation subject to society's evolving
sensitivities, courts should never "consult social
science research to interpret the Constitution." State
v. Roberson, 2019 WI 102, 584, 389 Wis. 2d 190,
935 N.W.2d 813 (Rebecca Grassi Bradley, J.,
concurring); [****56] see Missouri v. Jenkins, 515
U.S. 70, 119-20, 115 S. Ct. 2038, 132 L. Ed. 2d 63
(1995) (Thomas, J., concurring). "Only the
Constitution can serve as a reliable bulwark of the
rights and liberty of the people." Roberson, 389
Wis. 2d 190, 586 (Rebecca Grassi Bradley, J.,
concurring). In the majority's estimation, if social
science dictates that the State's interest in regulating
firearms [***773] is "substantial," then it may
circumscribe constitutional rights in conformance
with the research of the day.
[*13103] Constitutional rights rest on perilously
fragile footing if they may be curtailed by
subjective judicial predilections. Only the text and
history of the Second Amendment should inform
the analysis of whether Wis. Stat. § 941.20(1)(b) —
—Wisconsin's law prohibiting an intoxicated
individual from going armed with a firearm in his
own home--may be constitutionally applied to
Christen. Text and history show it may not.

[V102] Using a balancing test in Second
Amendment cases facilitates judicial contortions
utterly untethered to the original meaning of the
Constitution. The majority's reliance upon social
science research to buoy its means-end analysis
illuminates the problem. To support the State's
proffered "substantial interest" in prohibiting
intoxicated individuals from carrying firearms, the
majority cites "studies show[ing] that there is a
strong correlation between heavy drinking and selfinflicted injury" due to a firearm. $ee majority op.,

123

II. Wisconsin Stat. § 941.20(1)(b) As Applied to
Christen
[*1)104] In full, Wis. Stat. § 941.20(1)(b) reads:
(1) Whoever does any of the following is guilty
of a Class A misdemeanor:
(b) Operates or goes armed with a firearm
while he or she is under the influence of an
intoxicant.
(Emphasis added.) This statute
[**761]
criminalizes going armed with a firearm while
intoxicated, even within the confines of one's home.
The State charged Christen for going armed with a
firearm while intoxicated in violation [****57] of

2021 WI 39, *P78; 396 Wis. 2d 705, **761; 958 N.W.2d 746, ***773; 2021 Wisc. LEXIS 59, ****57

§ 941.20(1)(b) and the jury convicted him.
[*P105] Christen challenges the constitutionality
of Wis. Stat. § 941.20(1)(b) as applied to him. The
record shows that Christen did not operate a firearm
while under the influence of an intoxicant. Instead,
Christen went armed with (carried) a firearm while
under the influence of an intoxicant. "[I]n an asapplied challenge, we assess the merits of the
challenge by considering the facts of the particular
case in front of us, 'not hypothetical facts in other
situations." League of Women Voters of
Wisconsin Educ. Network, Inc. v. Walker, 2014 WI
97, 513, 357 Wis. 2d 360, 851 N.W.2d 302.
Accordingly, the analysis is limited to Christen's
right to "go[] armed with a firearm" — — not his
ability to "operate" one.
r P1061 A review of the text and history of the
Second Amendment establishes that Wis. Stat. §
941.20(1)(b) is unconstitutional as applied to
Christen. The Second Amendment does not
countenance restricting Christen's fundamental
right to go armed in his own home, even while
under the influence of an intoxicant. Historically,
legislatures did not limit the ability of individuals to
carry firearms while under the influence of an
intoxicant, and the Second Amendment affords
heightened protections of the right as exercised in
the home. Accordingly, Wis. Stat. § 941.20(1)(b)
unconstitutionally infringed Christen's right to bear
arms within his own home.

(emphasis added). From before the enactment of
the Second Amendment through the late-18th and
early-19th centuries, legislatures did not limit the
individual right to bear arms while under the
influence of an intoxicant. Indeed, few colonial-era
laws even regulated the use of firearms while
consuming alcohol, and none dealt with carrying
while intoxicated. See Mark Frassetto, Firearms
and Weapons Legislation up to the Early r***7741
20th Century (January 15, 2013).4 For example, in
1655 Virginia passed a law stating: "What persons
or persons soever shall, after publication hereof,
shoot any guns at drinking (marriages and funerals
only excepted) that such person or persons so
offending shall forfeit 100 lb. of tobacco . . . ."
1655 Va. Acts 401, Acts of March 10, 1655,
Act [****59] XII (emphasis added). This law had
nothing to do with bearing a firearm while
drinking; instead, it prohibited tiagtir_gi while
drinking, although shooting guns while celebrating
a marriage or mourning a death was completely
lawful.

[**762] A. Legislatures did not historically limit
an individual's [****58] right to bear arms while
under the influence of an intoxicant.
[V107] Contrary to the majority's mode of
analysis, "Heller signals that courts should
approach challenges to statutes infringing the
Second Amendment right with a rigorous review of
history, rather than the inherently subjective
consideration of whether the government's interest
in curtailing the right outweighs the individual's
interest in exercising it." Roundtree, 395 Wis. 2d
94, 575 (Rebecca Grassi Bradley, J., dissenting)

124

r P1081 [**763] Other states regulated the firing
of guns on particular occasions. A 1665 New York
law, for example, stated: "Whereas experience hath
demonstrated and taught that . . . much
Drunkenness and other insolence prevail on New
Year's and May Days, by firing of guns, . . . [which
leads] to deplorable accidents such as wounding, . .
. the director General . . . expressly forbids from
this time forth all firing of Guns." Ordinance of the
Director General and Council of New Netherland to
Prevent Firing of Guns, 1665 N.Y. Laws 205. New
York did not prohibit the carrying of weapons
while consuming alcohol, but forbade the firing of
guns on only two days out of the year— —New
Years and May Day— —due to the "Drunkenness
and insolence prevail[ing]" on those holidays. Even
the shooting of firearms while under the influence
of intoxicants remained lawful the other 363 days
of the year, while the act of carrying guns was
lawful every day.
available
is
readily
source
https://papers.ssm.com/so13/papers.cfm?abstract_id=2200991.

4 This

at:

2021 WI 39, *P109; 396 Wis. 2d 705, **763; 958 N.W.2d 746, ***774; 2021 Wisc. LEXIS 59, ****59

[*PM] The realities of life in early America
explain why individuals under the influence of an
intoxicant were able to carry arms with no legal
impediment. "In early America, drinking alcohol
was an accepted part of everyday life at a time
when water was suspect[.]" Bruce I. Bustard,
Alcohol's Evolving Role in U.S. History, Spirited
Republic, Winter 2014, at 15, 15. "Farmers took
cider, beer, or whiskey into their fields," and ale
would often accompany supper for many early
Americans. Id. From the late-18th century until the
annual alcohol
mid-19th century, [****621
consumption was on [**765] average much higher
than present day. Id.; see Bradley J. Nicholson,
Courts-Martial in the Legion Army: American
Military in the Early Republic, 1792-1796, 144 Mil.
L. Rev. 77, 93 n.69 ("Heavy alcohol consumption
was common in early America.") (citation omitted).
In 1790, the average early American consumed
approximately 5.8 gallons of alcohol annually, a
figure which rose to 7.1 gallons by 1830. Bustard,
[*P110] Influencing colonial regulation of supra, at 15. Contrast this to contemporary times,
shooting— —whether intoxicated or sober— — was during which the average American consumes only
a concern for the wasteful expenditure of 2.3 gallons per year. Id.
gunpowder and the potential for its unsafe storage.
See Saul Cornell & Nathan DeNino, A Well- [*P112] Coinciding with early America's culture
Regulated Right: The Early American Origins of of alcohol consumption was the widespread
Gun Control, 73 Fordham L. Rev. 487, 510-11 ownership of arms. "Gun owning was so common
(2004). Indeed, an array of 18th century statutes in in colonial America (especially in comparison with
the founding era "provide[d] [****61] for the safe other commonly owned items) that any claim that
storage and transport of gunpowder" and set 18th-century America did not have a 'gun culture' is
"Mimits on the amount of gunpowder a person implausible, just as one could not plausibly claim
could possess." Id. at 510 n.159, 511 (collecting that early Americans did not have a culture of
statutes). Early 17th century laws also reflected this reading or wearing clothes." James Lindgren &
concern by proscribing the expenditure of Justin L. Heather Counting Guns in Early America,
gunpowder while drinking. In 1632, for example, 43 Wm. & Mary L. Rev. 1777, 1840-41 (2002).
Virginia passed a law prohibiting the "commander Guns were held by many Americans and were often
of any plantation" from "spend[ingl powder passed down from generation to generation. See id.
unnecessarily, that is to say in drinking or 1800-01, 1811 ("Guns were common in 1774
entertainment." 1632 Va. Acts 178, Acts of estates, even in admittedly incomplete probate
September 4th, 1632, Act XLIV (emphasis added). records."). Accordingly, while [****63] foundingLaws criminalizing the carrying of a weapon while era lawmakers may have limited an individual's
consuming alcohol are non-existent in the ability to shoot guns while drinking, prohibiting the
historical record predating and carrying of firearms while drinking did not square
[***775]
surrounding ratification of the Second Amendment. with the prevalence of early-American alcohol
consumption and the carrying of firearms.

Other
laws
closely
predating
[*P109]
ratification [****60] of the Second Amendment
also indicate that early Americans regulated only
the shooting or operation of guns but not the act of
bearing them. In 1769, New York passed a law
prohibiting "any person" from "fir[ing] and
discharg[ing] any guns . . . in any street, lane, or
alley, garden, or other inclosure, or from any house,
or in any other place where persons frequently
walk." An Act for the More Effectual Prevention of
Fires in the City of New York, 1761-1775 N.Y.
Laws 548 (1769). Likewise, in 1771 New Jersey
passed a law prohibiting "any person . . . to set any
loaded gun in such manner as that the same shall be
intended to go off or discharge itself." An Act to
Prevent Trespassing with Guns, 1763-1775 N.J.
Laws 346, ch. 539, § 10. [**764] Neither of these
laws restricted the carrying of a firearm, regardless
of a person's state of sobriety or level of
intoxication.

125

2021 WI 39, *P113; 396 Wis. 2d 705, **765; 958 N.W.2d 746, ***775; 2021 Wisc. LEXIS 59, ****63

[IT113] The right to bear arms was not unlimited,
even in the founding era. During that time period,
legislatures "disqualified categories of people from
the right to bear arms . . . when they judged that
doing so was necessary to protect the public
safety." Kanter v. ("7661 Barr, 919 F.3d 437,451
(7th Cir. 2019) (Barrett, J., dissenting). In
particular, early Americans restricted the
possession of firearms by individuals who were
"dangerous to society," such as violent felons. See
Roundtree, 395 Wis. 2d 94, 1175 (Rebecca Grassi
Bradley, J., dissenting). However, there is no
evidence in the historical record indicating that
individuals under the influence of intoxicants were
understood to present a "danger" to society much
less temporarily disqualified from using firearms.
To the contrary, the common law restricted firearm
possession by those who committed "very serious,
very dangerous offenses such as murder, rape,
arson, and robbery." Don B. Kates & Clayton E.
Cramer, Second Amendment Limitations and
Criminological Considerations, 60 Hastings L.J.
1339, 1362 (2009). Additionally, [****64]
"colonial legislatures passed statutes disarming
Native Americans and slaves, purportedly out of
fear of their armed 'revolt' or other threats to 'public
safety:" Roundtree, 395 Wis. 2d 94, 1189 (Rebecca
Grassl Bradley, J., dissenting) (citing Kanter, 919
F.3d at 458 (Barrett, J., dissenting) (citing Joyce
Lee Malcolm, To Keep and Bear Arms 122
(1994))). Reflecting English parliament's fear of
"revolt, massacre, and counterCatholic
revolution," [***776] American colonists also
dispossessed Catholics of their firearms. Kanter,
919 F.3d at 457 (Barrett, J., dissenting). Individuals
temporarily under the influence of an intoxicant
simply did not fall under any categorical exclusions
from firearm possession, even temporarily, as

[*P1141 [**7671 Founding-era history supports
the conclusion that the Second Amendment protects
the individual right to bear arms, notwithstanding
the concurrent consumption of alcohol, but
resolving Christen's as-applied challenge rests on a
more fundamental foundation of the Second
Amendment: an individual's right to bear arms
within the home.
B. The Second Amendment provides heightened
protections in the home.
[*P115] The Second Amendment's protection of
the individual right to bear arms is most heightened
in the home— —where the State alleged [****65]
Christen violated Wis. Stat. § 941.20(1)(b). As
recognized by the United States Supreme Court,
"the need for defense of self, family, and property
is most acute' in the home." McDonald, 561 U.S. at
767 (quoting Heller, 554 U.S. at 628). For this
reason, the Second Amendment "elevates above all
other interests the right of law-abiding, responsible
citizens to use arms in defense of hearth and
home." Heller, 554 U.S. at 635.

[*P116] Unlike the majority's conclusions in this
case, the United States Supreme Court's holdings
are grounded in constitutional history. In colonial
times, many able-bodied men were "not simply
allowed to keep their own arms, but affirmatively
required to do so." Don B. Kates, Jr., Handgun
Prohibition and the Original Meaning of the Second
Amendment, 82 Mich. L. Rev. 204, 214-15 (1983).
This duty was deeply rooted in the English
tradition, under which individuals had "arms
readily available in their homes, . . [**768]
prepared at all times to chase down felons in
response to the hue and cry, or to assemble together
. . . in case of foreign invasion." Id. at 215 (citing F.
Constitutional History of England
confirmed by the lack of any founding-era laws Maitland, The
276 (Fisher ed., 1961)). In keeping with this
imposing such restrictions .5
tradition, "the [early American] duty to keep arms
applied to every household, not just to those
language stating that the opinion should not be read to "cast
doubt on longstanding prohibitions on the possession of firearms by
felons and the mentally ill" is of no relevance in assessing the
constitutionality of laws criminalizing the intoxicated bearing of
firearms. Heller, 554 U.S. at 626. Heller decided the constitutionality

5 Heller's

126

of a ban on handguns in the home and the Court unequivocally ruled
that challenges to other restrictions on the Second Amendment right
must be resolved based upon its text, history, and tradition.

2021 WI 39, *P113; 396 Wis. 2d 705, **768; 958 N.W.2d 746, ***776; 2021 Wisc. LEXIS 59, ****65

right which unsurprisingly would retain paramount
significance in the home. Id. at 581 (citing Samuel
Johnson, 1 Dictionary of the English Language
(1773)). Given the original meaning of the "right to
bear arms," the Heller Court naturally determined
that the Second Amendment "guarantee[s] the
individual right to possess and carry weapons in
[*P117] Many founding-era scholars, who either case of confrontation," particularly in "defense of
influenced the Framers or interpreted the hearth and home."6 Heller, 554 U.S. at 592, 635
Constitution shortly after its adoption, understood (emphasis added).
the importance of keeping firearms in the home.
William Blackstone, for example, described the C. Wisconsin Stat. * 941.20(1)(b) as applied to
right to keep and bear arms in the home as an Christen's right to bear arms in case of
"absolute right of individuals," explaining that confrontation in his home [****68]
"having arms for. . . defence" is a "natural right of rP1191 The Second Amendment's protection of
William
and
self-preservation."
resistance
the individual right to bear arms in the home in case
England
of
on
Laws
the
Commentaries
Blackstone,
of [**770] confrontation renders Wis. Stat. §
144 (John Murray, ed., 1857). St. George Tucker, a 941.20(1)(b) unconstitutional as applied to
prominent anti-federalist, described the right to Christen. On the night in question, Christen
bear arms as the "true [***777] palladium of consumed alcohol to a point of intoxication. He
gradual
against
cautioned
and
liberty"
went armed in case of confrontation with his
in
witnessed
as
right
this
on
encroachments
roommates or their guests. Importantly, all of this
England. St. George Tucker, Blackstone's conduct occurred within the confines of his own
Commentaries 143 (1803). Tucker feared the home. The Second Amendment most assuredly
State's "specious pretext[sr for disarmament where protects "carrying a gun from the bedroom to the
"not one man in five hundred can keep a gun in his kitchen" in one's home, yet * 941.20(1)(b)
house without being subject to a penalty." Id. Both criminally penalized Christen for exercising this
Blackstone's and Tucker's conceptions of the fundamental right. Rogers, 140 S. Ct. at 1868
Second Amendment were deeply rooted in the (Thomas, J., dissenting) (quoted source omitted).
writings of Sir [****67] Edward Coke, who The Second Amendment does not countenance
likewise influenced the Framers. Coke adamantly such a restriction on the fundamental individual
affirmed the existence of the right to possess arms right to bear arms in case of confrontation in the
for home defense. See 3 Sir Edward Coke, home.
[**769] The Third Part of the Institutes of the
Laws of England 161 (5th ed., 1671). "For a mans [*P120] The fact that Christen was intoxicated
house is his castle," wrote Coke, and "for where
shall a man be safe, if it be not in his house?" Id.

containing persons subject to militia services." Id.
In this manner, colonial settlers [****66] provided
"for the defense of their homes from criminals and
foreign enemies." Id. (citing The Laws and
Liberties of Massachusetts 42 (M. Farrard ed.,
1929, reprinted from the 1648 ed.)).

rP1181 "At the time of the founding, as now, 'to
bear' meant to 'carry- - —a term which some

understood, among other things, to reflect "the
natural right of defense 'of one's person or house."
Heller, 554 U.S. at 584 (citing 2 Collected Works
of James Wilson (K. Hall & M. Hall eds., 2007)).
Similarly, "arms" were understood to mean
"weapons of offence, or armour of defence"— —a

6 This is not to say that the Second Amendment does not apply with
full force outside the home. Far from it. "It would take serious
linguistic gymnastics— —and a repudiation of ',the] Court's decisions
in Heller— —to claim that the phrase 'bear arms does not extend the
Second Amendment beyond the home." Rogers v. Grewal, U.S. ___,
140 S. Ct. 1865, 1869, 207 L. Ed. 2d 1059 (2020) (denying petition
for writ of certiorari) (Thomas, J., dissenting). Indeed, "the full
context . . . of Heller] shows that the Second Amendment" is not
'confined to the 'defense of hearth and home." State v. Roundtree,
2021 WI 1, 592, 395 Wis. 2d 94, 952 N.W.2d 765 (Rebecca Grassi
Bradley, J., dissenting).

127

2021 WI 39, *P113; 396 Wis. 2d 705, **770; 958 N.W.2d 746, ***777; 2021 Wisc. LEXIS 59, ****68
does not justify the State's encroachment on this
fundamental right. During the founding era,
legislatures did not restrict the individual right to
bear arms to periods of sobriety, even outside the
home. Within the home, the right to bear arms is
"most acute." McDonald, 561 U.S. at 767 (quoting
Heller, 554 U.S. at 628).
[*P121] While the majority acknowledges that
"[a] lawful firearm owner, even if [***778]
intoxicated, cannot be convicted under §
941.20(1)(b) if he or she acts in self-defense,"
majority op., [****69] 527 (emphasis added), the
majority fails to understand the difference between
acting in self-defense and going armed in case of
confrontation. In Wisconsin, "[a] person is
privileged to threaten or intentionally use force
against another for the purpose of preventing or
terminating what the person reasonably believes to
be an unlawful interference with his or her person
by such other person." Wis. Stat. § 939.48(1). In
this case, because a jury concluded [**7711 that
Christen did not act in self-defense, the majority
leaps to the conclusion that he was properly
convicted. See majority op., 546. But in rejecting
Christen's self-defense argument, the jury
concluded only that Christen was not privileged to
threaten or use force against his roommates or their
guests. In upholding Christen's conviction, the
majority conflates carrying a gun with actions taken
in self-defense— —the threat or intentional use of
force. The majority never addresses Christen's
argument that the Second Amendment guarantees
the right to bear arms in the home in case of
confrontation, whether intoxicated or sober. It does.
[V122] As the constitutional text and the
historical record establish, criminalizing the
intoxicated carrying of firearms in the home
violates [****70] the original meaning of the
Second Amendment, which "guarantee[s] the
individual right to possess and carry weapons in
case of confrontation." Heller, 554 U.S. at 592.
This exercise of the right to bear arms retains
heightened protections in the home, "where the
need for defense of self, family, and property is

most acute." Id. at 628. Because Wis. Stat. §
941.20(1)(b) criminalized the right to bear arms in
case of confrontation in the home, the statute
violated Christen's Second Amendment right to
bear arms.
* *

A blind enforcement of every act of the
legislature, might relieve the court from the
trouble and responsibility of deciding on the
consistency of the legislative acts with the
constitution; but the court would not be thereby
released from its obligations to obey the
mandates of the constitution, and maintain the
paramount authority of that instrument[.]
Philip B. Kurland & Ralph Lerner, The Founders'
[**7721 Constitution, Vol. V, p. 213 (1987)
(quoting Bliss v. Commonwealth, 12 Little 90 (Ky.
1822)). The majority reflexively defers to the
fundamental
of
encroachment
legislature's
constitutional rights, in derogation of the
"paramount authority" of the Constitution. In doing
so, the majority embraces the policy-laden notion
that the Second Amendment protects something the
majority deems [****711 too dangerous and
perhaps dislikes. The majority's disdain for the
"pre-existing right" of "citizens to use arms in
defense of hearth and home," Heller, 554 U.S. at
635, is evident in its unconstitutional recasting of
this fundamental right as a mere "privilege"
bestowed by the State, as the majority sees it. See
majority op., 544. This case represents the latest
example of judges "decid[ing] on a case-by-case
basis whether the right is really worth insisting
upon." Heller, 554 U.S. at 634. As the United
States Supreme Court recognized in Heller, that
decision was made by the American people at the
time the Second Amendment was adopted. In this
decision, the majority overrides the will of the
people by circumscribing the fundamental
constitutional right to bear arms in case of
confrontation in the home. I respectfully dissent.

128

2021 WI 39, *P113; 396 Wis. 2d 705, **772; 958 N.W.2d 746, ***778; 2021 Wisc. LEXIS 59, ****71

End of Document

129

Appendix 2

130

COURT OF APPEALS
DECISION
DATED AND FILED

NOTICE
This opinion is subject to further editing. If
published, the official version will appear in
the bound volume of the Official Reports.

March 17, 2020

A party may file with the Supreme Court a
petition to review an adverse decision by the
Court of Appeals. See WIS. STAT. § 808.10
and RULE 809.62.

Sheila T. Reiff
Clerk of Court of Appeals

Appeal No.

Cir. Ct. No. 2018CM198

2019AP1767-CR

IN COURT OF APPEALS
DISTRICT IV

STATE OF WISCONSIN

STATE OF WISCONSIN,
PLAINTIFF-RESPONDENT,
V.
MITCHELL L. CHRISTEN,
DEFENDANT-APPELLANT.

APPEAL from a judgment of the circuit court for Dane County:
NICHOLAS J. McNAMARA, Judge. Affirmed.
¶1

BLANCHARD, J.'

Mitchell Christen was found guilty at a jury

trial of charges that included operating or going armed with a firearm while under
I This appeal is decided by one judge pursuant to WIS. STAT. § 752.31(2)(f) (2017-18).
All references to the Wisconsin Statutes are to the 2017-18 version unless otherwise noted.

131

No. 2019AP1767-CR

the influence of an intoxicant, in violation of Wis. STAT. § 941.20(1)(b). Christen
argued in the circuit court that the § 941.20(1)(b) charge should be dismissed on
the ground that it violates the Second Amendment in all cases in which it is
applied to the conduct of any person who is inside his or her residence, as he was
in this case. The circuit court declined to dismiss the charge. The court rejected
Christen's "broad constitutional argument that there's no way that this could be
consistent with the constitution in light of' the decision of the U.S. Supreme Court
in District of Columbia v. Heller, 554 U.S. 570 (2008).2 Christen apparently
intends to renew the same argument on appeal.

I reject the argument as a

misframed as-applied constitutional challenge and accordingly affirm."
112

WISCONSIN STAT. § 941.20(1)(b) is located in a statute entitled

"Endangering safety by use of dangerous weapon" and criminalizes at the
misdemeanor level the following conduct, without regard to the location of the
conduct:

"[o]perat[ing] or go[ing] armed with a firearm while ... under the

influence of an intoxicant."
¶3

According to Christen's own summary in his appellate brief,

evidence at trial included the following account, which features him handling two
firearms in the course of disputes in his apartment after substantial drinking:
In Heller, the U.S. Supreme Court concluded that the District of Columbia's nearcomplete ban on keeping operable handguns in the home infringed on "the right of law-abiding,
responsible citizens to use arms in defense of hearth and home," an interest
that the Court
described as "elevate[d] above all other [Second Amendment] interests." District of Columbia
v.
Heller, 554 U.S. 570, 574-75, 635 (2008) (emphasis added).
2

3 The State fails to file a brief in this appeal,
despite our order of March 9, 2020,
cautioning that this failure tacitly concedes circuit court error. However, for the reason explained
in the text, I conclude that Christen's failure to show error by the circuit court is so
plain that
summary reversal would not be reasonable.

1322

No. 2019AP1767-CR

(1) during the course of one evening, Christen "consumed four beers and one
shot"; (2) on the same evening, after this drinking, during the course of a dispute
with roommates and visitors of the roommates in their shared apartment, Christen
"picked up his handgun," and told someone trying to enter his room to get out of
the room; (3) after this, "[for his protection," Christen "tucked his handgun into
his waist-band" for a trip to the kitchen; and (4) after a physical interaction in
which someone "hit" him in the chest and "grabbed" his handgun, Christen
"quickly retreated to his room, closed the door, retrieved his secondary weapon,
and called 911."
114

In the circuit court, Christen filed a purported constitutional

challenge based on the premise that "Wis. STAT.

§

941.20(1)(b) violates his right

to bear arms when it is applied to him, or any other citizen, while he is present
within his own home." In essence, Christen argued that this position is supported
by the following passage in Heller, in particular the portions that I now
emphasize:
[T]he inherent right of self-defense has been central to the
Second Amendment right. The handgun ban [of the
District of Columbia at issue in Heller] amounts to a
prohibition of an entire class of "arms" that is
overwhelmingly chosen by American society for that
lawful purpose. The prohibition extends, moreover, to the
home, where the need for defense of self, family, and
property is most acute. Under any of the standards of
scrutiny that we have applied to enumerated constitutional
rights, banning from the home "the most preferred firearm
in the nation to 'keep' and use for protection of one's home
andfamily," would fail constitutional muster.
Heller, 554 U.S. at 628-29 (emphasis added) (footnote and citation omitted).

115

Before the circuit court, the State's responsive arguments included

reliance on the reasoning in United States v. Yancey, 621 F.3d 681 (7th Cir. 2010)

133

3

No. 2019AP1767-CR

(per curiam), a post-Heller opinion. In Yancy, the court stated that "most scholars
of the Second Amendment agree that the right to bear arms was tied to the concept
of a virtuous citizenry and that, accordingly, the government could disarm
`unvirtuous citizens.' Id. at 684-85 (quoting United States v. Vongxay, 594 F.3d
1111, 1118 (9th Cir. 2010) and citing extensive authority cited in Vongxay,
omitted here).

The court explained in Yancey that the government may

constitutionally "keep guns out of the hands of presumptively risky people" and
that its interest in this regard is "without doubt an important one." Id. at 683-84.
1,16

On appeal, Christen makes clear that he is presenting an "as applied"

constitutional challenge to Wis. STAT. § 941.20(1)(b). However, as our supreme
court explained in State v. Wood, 2010 WI 17, 323 Wis. 2d 321, 780 N.W.2d 63,
[I]n an as-applied challenge, we assess the merits of the
challenge by considering the facts of the particular case in
front of us, "not hypothetical facts in other situations."
Under such a challenge, the challenger must show that his
or her constitutional rights were actually violated.
¶13 (citations omitted).
117

Under this standard, it is fatal to Christen's purported as-applied

challenge that, as he did in the circuit court, he relies entirely on hypotheticals
about those who do not endanger the safety of others, and avoids even attempting
to address the facts of his own case. It is fatal, in other words, that Christen fails
to explain why, based on the facts of this case, WIS. STAT. § 941.20(1)(b) actually
violated his Second Amendment rights. Indeed, after the statement of facts and
the case, Christen's brief makes only passing references to his own conduct as
proven at trial and does not come close to applying pertinent legal principles to
that conduct. This failure is so complete that I do not need to address the standard
of review or other points referenced in his brief

1344

No. 2019AP1767-CR

By the Court.—Judgment affirmed.
This opinion will not be published.
809.23(1)(b)4.

135

5

See WIS. STAT. RULE

Appendix 3

136

Case 2018CM000198

Document 141

Filed 06-20-2019

Page 1 of 24
FILED
06-20-2 19
CIRCUI COURT
DANE C OUNTY,VW

1

STATE OF WISCONSIN

CIRCUIT COURT
BRANCH 5

DANE COUAA N 000198

2
STATE OF WISCONSIN,
3
Plaintiff,
4
CASE NO:18-CM-198

-vs5
6

MITCHELL L. CHRISTEN,
Defendant.

7
8
9
10

PROCEEDING:

Motion Hearing;

11

BEFORE:

The Honorable NICHOLAS J. MCNAMARA,
Circuit Court Judge;

DATE:

July 13, 2018;

APPEARANCES:

The State of Wisconsin represented
by Assistant District Attorney
AWAIS KHALEEL;

12
13
14
15
16

MITCHELL L. CHRISTEN present with
Attorney LAURA BREUN,
State Public Defender.

17
18
19
20
21
Heather Kieta
Official Court Reporter

22
23
24
25
1

137

Document 141

Case 2018CM000198

Filed 06-20-2019

Page 3 of 24

1

now two times, exactly a month apart where he's

2

failed to take a test.

3

Monitoring is not going so well, but we'll just

4

leave it.

5
6

His effort on Bail

Yeah, I was taking

THE DEFENDANT:
some -THE COURT:

I don't care what your

Whatever excuse it is, it's

8

excuse is.

9

non-compliance.

And I'm not taking action

10

because I believe there probably, I understand

11

the reason you missed it.

12

order any significant change.

13

non-compliance is not a positive thing.

14

can't be ambiguous about that.

15

history already of me ordering a bench warrant

16

for non-compliance, so I know Mr. Christen is

17

aware of that as an option.

18

will get back on track.

19
20
21

I'm going to not
But
I

There's also a

Hopefully things

Ms. Breun, I read the motion and I'm
trying to figure out -MR. KHALEEL:

Your Honor, I'm so sorry

Before we get into the substance

22

to interrupt.

23

of the motion if I could make a very brief

24

record of the Bail Monitoring violations.

25

Your Honor, I just wanted to be clear
3

138

Case 2018CM000198

Document 141

Filed 06-20-2019

Page 5 of 24

1

any of the specific facts of this case and it

2

doesn't matter.

3

But so I should hear from you.

MS. BREUN:

Um, my challenge to the

4

statute is applied to a situation when someone

5

is within their own residence, and so I'm

6

looking at it from the perspective of someone

7

who is in their own home, not necessarily

8

applying it to the facts as alleged in the

9

complaint in this case, but the fact that

10

Mr. Christen was in his own residence and was

11

entirely within the apartment he was living in

12

when all of the alleged activity took place

13

that gave rise to these charges.

14

THE COURT:

So I can understand an

15

interesting fact scenario that raises important

16

constitutional questions where a person is

17

intoxicated in his own home and there happens

18

to be a gun in his home.

19

In a closet.

20

whatever reason, maybe a disturbance, police

21

are called to the house.

22

intoxicated and they find within the house

23

there's a gun.

24

problem for the State to pursue that.

25

Just a gun present.

Even locked up perhaps.

So for

They find the suspect

But that's not, that could be a

But if they come to the home and the

5

139

Document 141

Case 2018CM000198

Page 7 of 24

Filed 06-20-2019

1

941.20(1)(b).

2

the charge is possession of a firearm and in

3

the body of the charge it says did operate a

4

firearm.

5

goes aimed.

6
7

And I know the general title on

941.20(1)(b) does say operates or
So help me to understand then.

MS. BREUN:

So looking at the language

that the court used in the Heller decision,
which is very specific to how important the

9

right to bear arms is connected with your right
And I'm

10

to defend yourself in your own home.

11

making the distinction that it's one thing for

12

the State to prohibit conduct in the public

13

sphere versus the private sphere.

14

this is a private sphere in a place in which

15

Mr. Christen has got the strongest right to

16

privacy that he would be guaranteed to in a

17

Fourth Amendment situation and that this would

18

also apply to a Second Amendment situation.

19

And because that is where the, where the Heller

20

court said it was most acute.

21

bear arms and the right to defend yourself was

22

tied and most acute to being in your own home,

23

that the State should not be prohibiting

24

something as possession while intoxicated.

25

THE COURT:

And so here

The right to

Well they're not.
7

140

The

Case 2018CM000198

Document 141

Filed 06-20-2019

Page 9 of 24

1

goes armed has a footnote in the jury

2

instruction from cases like Mularkey,Mular

3

k e y, a man is armed within the meaning of the

4

armed burglary statute when the dangerous

5

weapon is within his immediate control and

6

available for use.

7

explanations.

8

There's some other

Within reach, things like that.

So does your argument include, is your
argument that the second amendment prohibits

10

the State from criminalizing an intoxicated

11

person from using his firearm if it's in his

12

house, is that what you're saying?

13

MS. BREUN:

Yes, essentially.

I think

14

if depending on the nature of the use there are

15

other statutes that might apply that I don't

16

have as much of an argument on, which is why I

17

did not raise a constitutional challenge to the

18

other count involving the weapon in this case

19

of pointing the firearm at another.

20

though that sort of conduct is, there's a

21

bigger governmental interest in their ability

22

to regulate that conduct versus just the simple

23

possession.

24
25

THE COURT:

I think

You keep saying possession.

And that's not what this is.
9

141

And the heading

Document 141

Case 2018CM000198

Filed 06-20-2019

Page 11 of 24

1

concerns where the constitution is now being

2

limited?

3

MS. BREUN:

Yes.

4

THE COURT:

All right.

5

appreciate your patience.

6

the other side of this?

7

me a brief, did you?

8
9
10
11

MR. KHALEEL:

Mr. Khaleel, I

What's the law on

I don't think you gave

I did not, Your Honor.

I

do have some law to share with you, but brief
argument to make, Your Honor.
Let me start by saying what Attorney

12

Breun has presented and Attorney Breun is an

13

attorney here that I hold in high regard and

14

respect legal (inaudible).

15

the law prohibits use of a firearm within the

16

home for self-defense purposes when

17

intoxicated, and my understanding that her

18

argument is that she, that use of a firearm

19

within the hone for self-defense purposes, any

20

prohibition to that is unconstitutional.

21

think specifically when you're talking about

22

whether someone is intoxicated, but I imagine

23

that would apply pretty broadly if the court

24

was to fall in the favor of the defense.

25

agree that there's a, citizens generally have a
11

142

Her argument that

I

I do

Document 141

Case 2018CM000198

1

Filed 06-20-2019

Page 13 of 24

Your Honor, applying the intermediate

2

scrutiny that we've been discussing here, the

3

defense acknowledges that there's an important

4

governmental objective in prohibiting people
from going out in public while armed and
Or argues that the objective does

6

intoxicated.

7

not extend to a person who is within his or her
own home.

9

In other words they are less

dangerous when they are intoxicated, but just
From the State's perspective,

10

simply at home.

11

Your Honor, we would challenge that assumption,

12

that conclusion, especially when somebody for

13

example lives with roommates and family

14

members, and in this case Mr. Christen

15

several roommates.

16

violent crime including homicide involves

17

people you know, domestic violence involves

18

people you know, people you live with.

19

the most common crimes that you see, not just

20

here in Dane County, but everywhere in the

21

country.

22

regulations prohibiting drunken operations of a

23

firearm, even within the home, easily falls

24

within the category of reasonable exercise of

25

police power.

did have

We are aware that most

Some of

From our perspective, Your Honor,

Especially when you apply
13

143

Case 2018CM000198

guns.

Document 141

Filed 06-20-2019

Page 15 of 24

If he chooses to use them, then he can

2

not legally possess a gun."

3

drugs.

4

government's.

5

Honor, to United States v. Yancy, which is a

6

published 7th Circuit Court decision also from

7

2010, citing 621 Fed 3d 681, and the specific

The choice is his, not the
I'd also point the court, Your

(inaudible) is on Page 687.
9

Talking about

A quote from the

7th Circuit, "That the gun ban extends only so
In that way Yancy

10

long as Yancy abuses drugs.

11

himself controls his right to possess a gun.

12

The Second Amendment however does not require

13

congress to allow him to simultaneously chose

14

both gun possession and drug abuse.

15

find that congress acted within constitutional

16

bounds by prohibiting illegal drug users from

17

firearm possession because it is substantially

18

related to the important governmental interest

19

in preventing violent crime."

20

that I could summarize the State's argument any

21

better than the 7th Circuit already did.

22

That's really I think the crux of the State's

23

argument, Your Honor.

24

want to belabor the point.

25

the court's question for clarification.

In sum we

I don't think

I do have more.

15

144

I don't

I'm happy to answer

Filed 06-20-2019

Document 141

Case 2018CM000198

Page 17 of 24

1

constitution does not give him the right to be

2

armed while committing a felony or to have guns

3

in the next room for emergency use should

4

suppliers, customers or the police threaten the

5

dealer stash.

6

that Mr. Christen was a drug dealer or trying

7

to sell drugs or anything.

8

establish that you can't just have guns in your

9

house for any reason.

To be clear we're not alleging

But they did

And I think it's

10

consistent with the general understanding of

11

the Second Amendment general restriction as

12

outlined by Justice Scalia where if you are

13

felon or you are someone who has been

14

adjudicated as someone who is mentally ill, you

15

can't just be in your house and have a gun

16

either.

That would still be illegal.

THE COURT:

17

a

Okay.

Ms. Breun on this

18

Yancy case if we just substitute alcohol for

19

drugs it seems close to the same analysis.
MS. BREUN:

20

Well I didn't have a chance

I would say a significant

21

to read it.

22

difference in general between, you know,

23

controlled substances, drugs and alcohol is one

24

is

25

you look at operating under the influence laws

per se illegal and one is not.

17

145

You know,

Case 2018CM000198

Document 141

Page 19 of 24

Filed 06-20-2019

1

Does our statute define -- well it says under

2

the influence.

3
4

MS. BREUN:

think that's one of those issues with the jury
instruction.

6

I don't think we have, I

It says under the influence and a

definition --

7

THE COURT:

It's the familiar.

8

MS. BREUN:

-- is materially impaired

9

because of the consumption of alcohol, but I

10

don't know that it has like the same .08

11

standard or anything?

12

THE COURT:

No, it absolutely does not.

13

It's the, in a standard OWI case, it's the

14

influence, not the PAC part of it.

15

struggle with that mightily.

And jurors

16

MS. BREUN:

Right.

17

THE COURT:

I know Mr. Khaleel knows

18

that from his trial experience.

19

do too, Ms. Breun.

20

MS. BREUN:

I do.

I'm sure you

You know, I see the

21

court's point and like I said I didn't get a

22

chance to look at Yancy.

23

worth, I looked into seeing what I could find

24

in a couple other jurisdictions.

25

Unfortunately, I didn't have the time to do a
19

146

I think for what it's

Case 2018CM000198

Page 21 of 24

Filed 06-2G-2019

Document 141

1

drinking alcohol, liberally and freely and even

2

to the point that there might be impairment or

3

would meet the definition of under the

4

influence not expecting any sort of invasion to

5

the home, and someone breaks into the home, and

6

a firearm is available to some extent, maybe

7

even locked, but if enough warning is given the

8

intoxicated homeowner could get to the gun

9

cabinet, get the gun and draw it.

It's

10

impossible to imagine that the State would

11

think that they could really win just a

12

technical violation of 941.20 on those facts.

13

But that's not a constitutional, that's not a

14

broad constitutional challenge.

15

applied to those particular facts.
MS. BREUN:

16

Right.

That's more as

And that's only an

17

argument I would make if we meet a burden of

18

production for trial for certain jury

19

instructions.

20

aside.

21
22

I just bring that up as an

THE COURT:

Sure.

Anything else,

Mr. Khaleel?

23

MR. KHALEEL:

24

THE COURT:

25

Okay.

thoughtful motion.

No, Your Honor, thank you.

All right.

So it's a

I think that this statute
21

147

Case 2018CM000198

Page 23 of 24

Filed 06-20-2019

Document 141

1

There are some scenarios I think where the

2

strict reading of the statute could result in

3

an absurd or unjust, and in a sense perhaps an

4

unconstitutional outcome.

5

specific.

6

constitutional argument that there's no way

7

that this could be consistent with the

8

constitution in light of Heller.

9

motion has to be denied.

10

That's fairly fact

But in terms of just a broad

So I'm denying the motion.

hink that

I

The State

11

can proceed on Count 2, as well as the other

12

counts that weren't challenged today.

13

we'll set this for. a trial and see where we go

14

from there.

And

15

Anything need to be clarified?

16

MR. KHALEEL:

17

MS. BREUN:

I believe we have dates.

18

THE COURT:

Okay.

No.

All right.

19

Mr. Christen, let's comply with Bail

20

Monitoring.

21
22
23

So

You heard the DA there.

We're adjourned for now.

Thanks for

your patience.
(AT WHICH TIME the proceedings concluded.)

24
25
23

148

Appendix 4

149

USCS Const. Amend. 2
Current through the ratification of the 27th Amendment on May 7,1992.
United States Code Service > Amendments > Amendment 2 Right to bear arms.

Amendment 2 Right to bear arms.
A well regulated Militia, being necessary to the security of a free State, the right of the people to
keep and bear Arms, shall not be infringed.
United States Code Service
Copyright © 2021 Matthew Bender & Company, Inc.
a member of the LexisNexis Group (TM) All rights reserved.

End of Document

150

Appendix 5

151

Wis. Stat. § 941.20
This document is current through Act 79 with the exception of Act 58 of the 2021-2022 Legislative
Session
LexisNexis@ Wisconsin Annotated Statutes > Criminal Code (Chs. 939 — 951) > Chapter 941. Crimes
Against Public Health and Safety (Subchs. I — IV) > Subchapter III Weapons (§§ 94120 — 941299)

941.20. Endangering safety by use of dangerous weapon.
(1) Whoever does any of the following is guilty of a Class A misdemeanor:
(a) Endangers another's safety by the negligent operation or handling of a dangerous weapon.
(b) Operates or goes armed with a firearm while he or she is under the influence of an
intoxicant.
(bm) Operates or goes armed with a firearm while he or she has a detectable amount of a
restricted controlled substance in his or her blood. A defendant has a defense to any action
under this paragraph that is based on the defendant allegedly having a detectable amount of
methamphetamine, gamma-hydroxybutyric acid, or delta-9-tetrahydrocannabinol in his or her
blood, if he or she proves by a preponderance of the evidence that at the time of the incident or
occurrence he or she had a valid prescription for methamphetamine or one of its metabolic
precursors, gamma-hydroxybutyric acid, or delta-9-tetrahydrocannabinol.
(c) Except as provided in sub. (1m), intentionally points a firearm at or toward another.
(d) While on the lands of another discharges a firearm within 100 yards of any building
devoted to human occupancy situated on and attached to the lands of another without the
express permission of the owner or occupant of the building. "Building" as used in this
paragraph does not include any tent, bus, truck, vehicle or similar portable unit.
(1m)
(a) In this subsection:
1. "Ambulance" has the meaning given in s. 256.01 (10.
it. "Emergency medical responder" has the meaning given in s. 256.01 (4p).
2. "Emergency medical services practitioner" has the meaning given in s. 256.01(5).
(b) Whoever intentionally points a firearm at or towards a law enforcement officer, a fire
tighter, an emergency medical services practitioner, an emergency medical responder, an
ambulance driver, or a commission warden who is acting in an official capacity and who the
person knows or has reason to know is a law enforcement officer, a fire fighter, an emergency
medical services practitioner, an emergency medical responder, an ambulance driver, or a
commission warden is guilty of a Class H felony.
(2) Whoever does any of the following is guilty of a Class G felony:

152

Wis. Stat. § 941.20

(a) Intentionally discharges a firearm into a vehicle or building under circumstances in which
he or she should realize there might be a human being present therein; or
(b) Sets a spring gun.
(3)
(a) Whoever intentionally discharges a firearm from a vehicle while on a highway, as defined
in s. 340.01 (22), or on a vehicle parking lot that is open to the public under any of the
following circumstances is guilty of a Class F felony:
1. The person discharges the firearm at or toward another.
2. The person discharges the firearm at or toward any building or other vehicle.
(b)
1. Paragraph (a) does not apply to any of the following who, in the line of duty, discharges
a firearm from a vehicle:
a. A peace officer, except for a commission warden who is not a state-certified
commission warden.
b. A member of the U.S. armed forces.
c. A member of the national guard.
2. Paragraph (a) does not apply to the holder of a permit under s. 29.193 (2) who is
hunting from a standing motor vehicle, as defined in s. 29.001 (57), in accordance with s.
29.193 (2) (Cr) 2.
(c) The state does not have to negate any exception under par. (b). Any party that claims that
an exception under par. (b) is applicable has the burden of proving the exception by a
preponderance of the evidence.
(d) The driver of the vehicle may be charged and convicted for a violation of par. (a)
according to the criteria under s. 939.05.
(e) A person under par. (a) has a defense of privilege of self-defense or defense of others in
accordance with s. 939.48.

History
1977c. 173; 1987 a. 399; 1989a. 131; 1993 a. 94,486; 1997 a. 248, 249; 1999 a. 32; 2001 a. 109; 2003 a.
97, 190; 2007 a. 11,27, 130; s. 35.17 correction in (1) (a), (b); 2015 a. 197; 2017 a. 12.
LexisNexis® Wisconsin Annotated Statutes
Copyright 0 2021 All rights reserved.

End of Document

153

